No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

ROADIE, INC.,
Petitioner,
v.

BAGGAGE AIRLINE GUEST
SERVICES, INC.,
Respondent.
-------------------------- ♦ --------------------------

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

Edward A. Pennington
Counsel of Record
SMITH, GAMBRELL & RUSSELL, LLP
1055 Thomas Jefferson Street, NW, Suite 400
Washington, DC 20005
(202) 263-4300
epennington@sgrlaw.com
Counsel for Petitioner

Dated: April 5, 2021

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTIONS PRESENTED
The Patent Statute provides, simply and
succinctly, that “[t]he court in exceptional cases may
award reasonable attorney fees to the prevailing
party.” 35 U.S.C. § 285. This edict has remained
unchanged since enactment of the Patent Statute in
1952. However, in 2014, the Supreme Court corrected
long standing application of Section 285 by the U.S.
Court of Appeals for the Federal Circuit in the
seminal case Octane Fitness, LLC v. ICON Health &
Fitness, Inc., 572 U.S. 545 (2014). It has been near
universally accepted that Octane Fitness made it
easier to obtain fees for the prevailing party by doing
away with rigid and complex analyses imposed by the
Federal Circuit application of the law, rather than
focusing on the law itself.
Near simultaneously, the Supreme Court
issued its decision in Highmark Inc. v. Allcare Health
Management System Inc., 134 S. Ct. 1744 (2014).
There, the Supreme Court overturned the previous de
novo standard of review for the exceptional-case
determination under Section 285. The court held that
“[b]ecause § 285 commits the determination whether
a case is ‘exceptional’ to the discretion of the district
court, that decision is to be reviewed on appeal for
abuse of discretion.” Since 2014, judicial “discretion”
has been inconsistent and contradictory in a way that
frustrates the goal of 35 U.S.C. § 285 which is to
improve the efficiency of the judiciary by discouraging
the filing of bogus law suits.
The questions presented are:
1.
Whether District Court judges should be
required to consider the weakness of an infringement

ii
claim, after ruling in favor of the defendant on
invalidity, where, as here, (i) the issue of noninfringement was fully briefed, (ii) claim construction,
of the only disputed term, was performed by the judge
in ruling on invalidity, and (iii) plaintiff
misrepresented to the court both the need for claim
construction, and the nature of the alleged
infringement; and concomitantly, should Circuit
Courts of Appeals give more scrutiny to District Court
judges who use discretion without considering all
relevant factors.
2.
Whether the district court failed to fairly
consider all relevant factors bearing on the issue of
exceptionality.
3.
Whether violating Fed. R. C. P. 7, in an
apparent effort to hide the improper motive for
bringing and sustaining a weak patent infringement
case, should lead to a per se rule that a case is
exceptional; alternatively, whether such a violation
should have been considered as one of the factors in
determining exceptionality.

iii
CORPORATE DISCLOSURE STATEMENT
Petitioner Roadie, Inc. is a privately held
company with no parent corporation, and no publicly
held company owning 10% or more of its stock.
RELATED CASES
x

Baggage Airline Guest Services, Inc. v. Roadie,
Inc., No. 18-707-RGA, U.S. District Court for
the District of Delaware. Judgment entered
Feb. 14, 2020.

x

Baggage Airline Guest Services, Inc. v. Roadie,
Inc., No. 2020-1540, U.S. Court of Appeals for
the Federal Circuit. Judgment entered Nov. 4,
2020.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
CORPORATE DISCLOSURE STATEMENT ...........iii
RELATED CASES .....................................................iii
TABLE OF CONTENTS............................................ iv
TABLE OF AUTHORITIES ..................................... vii
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 2
STATUTORY PROVISIONS INVOLVED ................. 2
STATEMENT.............................................................. 2
SUMMARY OF FACTORS ......................................... 4
REASONS FOR GRANTING THE PETITION ......... 5
BACKGROUND .......................................................... 5
A.

The ‘336 Patent ..................................... 5

B.

BAGS Sued Roadie Twice In
Florida Twice ......................................... 9

C.

The Delaware District Court
Ruled The ‘336 Patent Invalid ............ 11

D.

Invalidity Was Affirmed at the
Federal Circuit .................................... 13

v
E.

The District Court Denied
Roadie’s Fee Motion ............................ 13

SUMMARY OF ARGUMENT .................................. 15
ARGUMENT ............................................................. 18
A.

Standard of Review ............................. 18

B.

The Federal Circuit Should Have
Required Infringement Analysis ........ 19

C.

BAGS’ Infringement Positions
Were Objectively Baseless .................. 21

D.

BAGS’ Position on Invalidity Was
Objectively Baseless ............................ 33

E.

BAGS Abandonment of Claim
Construction
Positions
Demonstrates Ill Intent ...................... 35

F.

Summary of Factors Favoring
Exceptionality...................................... 38

CONCLUSION ......................................................... 40
APPENDIX:
Judgment of
The United States Court of Appeals
for the Federal Circuit
entered November 4, 2020....................... 1a
Order of
The United States District Court
For the District of Delaware
entered February 14, 2020 .................... 3a

vi
Memorandum Opinion of
The United States District Court
For the District of Delaware
entered February 14, 2020 .................... 4a

35 U.S.C. § 285 ............................................... 14a
U.S. Patent No. 9,659,336 B2 ...................... 15a

vii
TABLE OF AUTHORITIES
Page(s)
CASES
Alice Corp. Pty. v. CLS Bank Int’l,
134 S. Ct. 2347 (2014) .............................. 14, 34
Computer Docking Station Corp. v. Dell, Inc.,
519 F.3d 1366 (Fed. Cir. 2008) ...................... 38
Cooter & Gell v. Hartmarx Corp.,
496 U.S. 384 (1990) ........................................ 18
Finnavations LLC v. Payoneer, Inc.,
2019 WL 1236358
(D. Del. Mar. 18, 2019)........................... passim
GT Nexus, Inc. v. Intra, Inc.,
2015 WL 6747142 (N.D. Cal. Nov. 5, 2015),
aff’d, 669 F. App’x 562 (Fed. Cir. 2016)......... 12
Hensley v. Eckerhart,
461 U.S. 424 (1983) ................................... 32-33
Highmark Inc. v. Allcare Health Mgmt. Sys., Inc.,
572 U.S. 559 (2014) ..................................... i, 18
Intellectual Ventures I, LLC v.
Capital One Bank (USA),
792 F.3d 1363 (Fed. Cir. 2015) ...................... 13
Kilopass Tech., Inc. v. Sidense Corp.,
738 F.3d 1302 (Fed. Cir. 2013) ................ 18, 32

viii
Mathis v. Spears,
857 F.2d 749 (Fed. Cir. 1988) ........................ 32
Microsoft Corp. v. Alcatel Bus. Sys.,
No. 07-090-SLR, 2007 WL 4480632
(D. Del. Dec. 18, 2007) ....................... 29, 30, 31
Octane Fitness, LLC v.
ICON Health & Fitness, Inc.,
572 U.S. 545 (2014) ............................... i, 18, 19
Therasense, Inc. v. Becton, Dickinson & Co.,
745 F.3d 513 (Fed. Cir. 2014) ........................ 33
Ultramercial, Inc. v. Hulu, LLC,
772 F.3d 709 (Fed. Cir. 2014) ........................ 12
STATUTES
28 U.S.C. § 1254(1) ..................................................... 1
35 U.S.C. § 101.................................................. passim
35 U.S.C. § 285.................................................. passim
RULES
Fed. R. Civ. P. 7 ............................................ ii, 3, 4, 39
Fed. R. Civ. P. 11 .................................................. 5, 38
Fed. R. Civ. P. 12(b)(6).............................................. 19
Fed. R. Civ. P. 12(c) .......................................... passim
Model Rule 4.1(a) ................................................ 30, 31
Model Rule 4.2 .......................................................... 31

ix
Model Rule 4.3 .................................................... 30, 31
Model Rule 8.4(c) ................................................ 30, 31

1
IN THE SUPREME COURT
OF THE UNITED STATES
_____________
No. ________
ROADIE, INC., PETITIONER
v.
BAGGAGE AIRLINE GUEST SERVICES, INC.,
RESPONDENT
____________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT
____________
PETITION FOR A WRIT OF CERTIORARI
____________
Roadie, Inc. respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Federal Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals affirming
the denial of attorney fees (App. 1a-2a) is unreported.
The district court’s order denying petitioner’s motion
to declare the case exceptional under 35 U.S.C. § 285
(App. 4a-13a) is unreported. The district court’s order
granting petitioner’s motion for judgment on the
pleadings is reported at 351 F. Supp. 3d 753. The
opinion of the court of appeals affirming the district
court’s ruling on invalidity is unreported.

2
JURISDICTION
The judgment of the court of appeals was
entered on November 4, 2020. The jurisdiction of this
Court is invoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
The relevant provisions of the Patent Statute,
35 U.S.C. § 285, are reproduced in the appendix to
this petition (App. 14a).
STATEMENT
In this case, Petitioner Roadie, Inc. (“Roadie”)
was forced to defend a case that should never had
been brought by Baggage Airline Guest Services, Inc.
(“BAGS”). Roadie was the prevailing party at the
district court, by winning a motion for judgment on
the pleadings that the asserted patent was invalid
under 35 U.S.C. § 101. Roadie’s motion included
grounds for finding the patent was not infringed, but
the district court did not rule on that part of the
motion. BAGS appealed the district court’s ruling,
and the U.S. Court of Appeals for the Federal Circuit
affirmed the invalidity ruling.
Roadie moved for fees under 35 U.S.C. § 285,
but that motion was denied. Roadie appealed to the
Federal Circuit, but the denial was affirmed. Both at
the Federal Circuit, and now, the standard of review
is abuse of discretion. The question before this Court
is to what extent can judicial discretion exclude some
factors, in favor of a more limited subset of factors.
Critically, both the district court and the Federal
Circuit did not consider Roadie’s strong showing of

3
non-infringement.
The issue was fully briefed.
Prevailing on two dispositive issues, rather than one,
would not necessarily make a case more exceptional,
except that the infringement positions adopted by
BAGS were interwoven with litigation misconduct,
including misrepresentations to the district court
about the need for claim construction, about how the
accused product operated, and refusal to inspect
source code, knowing that the source code would
reinforce the non-infringing nature of the accused
products.
A critical issue that the district court
completely overlooked was the fact that BAGS was
sold for $275 million before the case ended, and did
not update their Fed. R. C. P. Rule 7 disclosures. The
sale of the company exposes the motive for bringing a
bogus lawsuit. In selling itself, BAGS would logically
present itself as having a patent-based monopoly on
its business model, and maintaining a law suit
against Roadie would have been evidence to the buyer
of BAGS’ efforts to maintain that monopoly, and thus
its own market capitalization. Roadie never had a
chance to investigate the sale, because in discovery
BAGS did not produce any information about the sale,
and without a Rule 7 update, both the district court
and Roadie were in the dark.
For both the district court and the Federal
Circuit, no mention was made about this significant
subterfuge. While intent is difficult if not impossible
to prove with direct evidence, the sale itself is strong
circumstantial evidence that BAGS needed to keep
this case alive at least until the sale was
consummated, which ironically, was just before this
case ended.

4
SUMMARY OF FACTORS
The district court failed to consider the
following:
- BAGS failed to update their Fed. R. C. P. Rule
7 corporate disclosure statement to reflect that they
had a new owner, who paid $275 million for BAGS.
- The district court did not consider the noninfringement part of the case, mistakenly saying that
discovery had just begun, when in fact it was nearly
over, and that a Markman ruling had not been made
when in fact Markman was fully briefed, and only one
term was in dispute, and that term was construed by
the district court in ruling on invalidity for Roadie.
- Trial counsel for BAGS misrepresented to the
district court the operation of Roadie’s app, by using
a separate messaging app to change a delivery option,
and then saying the change was effected through the
Roadie app.
- Trial counsel for BAGS inappropriately
engaged a Roadie driver in a discussion, without
Roadie counsel knowledge, about how the Roadie app
worked, specifically, whether Roadie gave drivers
phone numbers to use.
- BAGS sued Roadie twice in the wrong venue,
once before BAGS owned the patent, and both time
required successful motions to dismiss and transfer.
- The relative financial situations between the
two parties, showing that Roadie was much smaller,
and the defense put a severe financial strain on their
operations.

5
REASONS FOR GRANTING THE PETITION
The questions presented in this case are
critically important to the efficient operation of the
judicial system. Federal courts are awash with patent
suits that have no merit, and while legislative
solutions are frequently proposed, and often
misguided, the tools already exist for making the
judicial system more efficient and effective. Those
include Rule 11 of the Federal Rules of Civil
Procedure, and fee reversing statutes like 35 U.S.C.
§ 285. Section 285 can only work, however, if it is
applied evenly, consistently and fairly. The Court
needs to provide guidance to the district courts,
including for the first time, guidance that noninfringement should be factored into the equation,
when it is fully briefed, discovery is nearly completed,
and Markman is unnecessary, as here.
Where bright lines are available, judicial
discretion can be more easily applied and defended.
For that reason, Roadie proposes that where
corporate disclosure rules are not followed, and the
failure to do so can be tied to a motive for carrying on
bogus litigation, the mere failure to disclosure should
provide a per se basis for finding exceptionality under
Section 285.
BACKGROUND
A.

The ‘336 Patent

The patent-in-suit, U.S. Patent No. 9,659,336
(“the ’336 patent”), titled “Mobile Baggage Dispatch
System and Method,” purports to provide an
improved system and method for coordinating and

6
monitoring baggage delivery. (App. 15a-68a) In fact,
practically the first words in the patent state the
invention in the abstract: “the present disclosure
relates to a system and a method of coordinating and
monitoring baggage delivery.” (App. 33a-34a)
The specification discloses that the patent is
directed to “coordinating and monitoring baggage
delivery,” and that delivery of delayed baggage before
the purported invention of the ’336 Patent typically
was coordinated through telephone calls between the
passenger and the delivery service:
The present disclosure relates
generally to the field of baggage
management. In particular, the present
disclosure relates to a system and a
method of coordinating and monitoring
baggage delivery.
When baggage is lost during an
airline flight, a passenger usually
reports the bag missing and leaves an
address and phone number where the
baggage can be dropped off. The
passenger continues to his destination,
for example, to a hotel, his home, or a
resort, without his baggage. The airline
or airport then commences a search for
the baggage, for example, by parsing
unclaimed baggage in the system. After
the baggage is located by the airline or
airport, the airline can then deliver the
baggage to the passenger. It can be a
number of days before baggage is located
and forwarded to the correct destination.

7
Typically, the baggage is actually
delivered to the passenger by a subcontractor, such as a taxi service.
Often, the sub-contractor will call
the passenger at the address to confirm
the drop-off location, to determine if the
passenger is home, and to let the
passenger know that the baggage will be
dropped off. A typical sub-contractor will
drop the baggage off at the front door,
ring the doorbell, and leave; where the
baggage could then be stolen. Further,
the sub-contractor could simply keep the
baggage and merely report the baggage
as delivered. Thus, improved systems
and methods for coordinating and
monitoring baggage delivery are needed.
(App. 34a).
The ’336 patent contains three independent
claims, claims 1, 7, and 13, which use remarkably
similar language. Claim 7, a method claim, was
treated as representative for purposes of Roadie’s
Rule 12(c) motion, and states as follows:
7. A method of dispatching baggage,
comprising:
receiving, through a transceiver of a
server and after a piece of baggage has
been transported to a destination,
baggage information relating to the
piece of baggage to be delivered to a
passenger, the baggage information

8
including a drop off address, wherein the
passenger is at a location different than
the destination;
associating, by the processor of the
server, the baggage information with a
delivery person, wherein the delivery
person is associated with delivery person
information;
transmitting, through the transceiver, a
pickup bags message to a deliverer
computing device associated with the
delivery person;
transmitting, through the transceiver,
at least a portion of the baggage
information and the delivery person
information to a passenger computing
device associated with the passenger;
receiving, through the transceiver, from
the passenger computing device a
selection to hold delivery of the piece of
baggage using a passenger interface
until a delayed delivery time wherein
the passenger interface displays travel
information of the passenger including
at least one of an airline name and an
airport name and a baggage map
configured to display on the passenger
computing device an approximate
location or current location of the piece
of baggage associated with the travel
information wherein the passenger
interface is updated with changes in the

9
approximate location or the current
location of the piece of baggage during
transport;
relaying, through the transceiver, a
delivery change to the deliverer
computing device responsive to the
selection to hold delivery of the piece of
baggage using the passenger interface;
and
reordering, by the processor of the
server, other deliveries associated with
the deliverer computing device given the
delivery change.
(App. 62a-64a).
All three independent claims require a
“selection to hold delivery” function with structure
that points to a server that is a part of the claimed
luggage dispatch apparatus and method. As relates
to the present appeal, the “selection to hold delivery”
limitation did not make the claims patentable, but it
did confirm non-infringement.
B.

BAGS Sued Roadie Twice In Florida
Twice

On July 7, 2017, BAGS sued Roadie in the
Middle District of Florida (6:17-cv-01549) for
infringement of the ‘336 patent and for violation of
Florida state law claims. Roadie moved to dismiss
because BAGS did not own the ‘336 patent and thus
lacked standing, because the state law claim was
preempted by federal patent law, and because venue

10
was improper. That motion was granted with respect
to the standing issue and the state law claim, and the
complaint was dismissed, without addressing the
venue issue.
On August 24, 2017, BAGS filed a second
complaint in the Middle District of Florida on the
same day it acquired the ‘336 patent, without any
state law claims. On November 10, 2017, Roadie filed
another motion to dismiss for improper venue and
that motion granted, six months later on May 9, 2018,
thereby sending the case to Delaware.
Florida had the case for approximately nine (9)
months (August 24, 2017 to May 9, 2018), and
Delaware had the case for approximately eight (8)
months (May 9, 2018 to January 6, 2019).
Before transfer to Delaware, on February 6,
2018, Roadie filed a motion for judgment on the
pleadings under Fed. R. Civ. P. 12(c), asserting both
invalidity under 35 U.S.C. § 101, and noninfringement.
That motion was fully briefed by
Florida local practice rules (which did not permit a
reply to the opposition) on March 6, 2018 when BAGS
filed its opposition brief.
The parties engaged in extensive discovery in
Florida and exchanged claim constructions.
According to the Case Management Report filed on
December 14, 2017, the parties exchanged Initial
Disclosures on January 12, 2018, and BAGS served
Infringement Contentions on January 31, 2018.
Roadie served Non-infringement and Invalidity
Contentions on February 28, 2018. The parties
served Disputed Terms on March 28, 2018, and filed

11
a Joint Claim Construction Statement on May 9,
2018.
According to the parties’ Joint Claim
Construction, only one claim term had a disputed
construction: “selection to hold delivery.” BAGS
asserted the following construction: “sending a
communication to the deliverer via the server to
change delivery time.” Roadie asserted the term did
not need construction, given the plain and ordinary
meaning of the words. The construction that BAGS
asserted was adopted by the district court in deciding
that the claims were patent ineligible under 35 U.S.C.
§ 101. Under any construction, the ‘336 claims were
not infringed by Roadie.
C.

The Delaware District Court Ruled The
‘336 Patent Invalid

On January 7, 2019, the district court granted
Roadie’s Motion for Judgment on the Pleadings, but
declined to consider non-infringement because the
patent was found to be invalid.1 That decision was
appealed by BAGS to the Federal Circuit, which
affirmed on November 5, 2019.
In its invalidity determination, the district
court found that the BAGS patent claims were
directed to the abstract idea of “coordinating and
monitoring baggage delivery.” The court referred to
the patent specification where it states that the
invention relates to “improved systems and methods
Appx1997 at footnote 3: “Because I have found that the ‘336
patent claims are directed to ineligible subject matter, I decline
to consider whether the Complaint fails to state a claim of
infringement.”
1

12
for coordinating and monitoring baggage delivery.”
The district court also found the BAGS patent to be
similar to the one invalidated under 35 U.S.C. § 101
in GT Nexus, Inc. v. Intra, Inc., 2015 WL 6747142
(N.D. Cal. Nov. 5, 2015), aff’d, 669 F. App’x 562 (Fed.
Cir. 2016) (per curiam). The GT Nexus case involved
the shipping of goods, which was known to be a
conventional business practice. Id.
BAGS tried to argue that the “selection to hold
delivery” aspect of the claims made the claims not
abstract. However, the district court acknowledged
that the parties disputed construction of that term,
and for the purposes of the motion, construed the term
the way BAGS wanted it: “sending a communication
to the deliverer via the server to change the delivery
time.” Having construed the claim term, the district
court opined that the desired construction does not
change the fact that the claims are directed to an
abstract idea.
After finding the claims directed to an abstract
idea, the district court went on to find “no inventive
concept” under the two step analysis set forth in
Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709, 716
(Fed. Cir. 2014). Roadie pointed out that the claims
require nothing more than conventional and generic
computer elements to implement the claimed
functionality, and the district court agreed. BAGS
then tried to argue validity based on features that
were not in the claims, including that the invention
provides “guaranteed delivery.” However, the district
court agreed with Roadie that “guaranteed delivery”
could not be relied on for patentability since it does
not appear in the claims.

13
Finally, BAGS tried to argue that the inventive
concept can be found in the efficiency gained by using
computers to arrange baggage delivery. To this the
district court said “[t]his is contrary to law,” citing
Intellectual Ventures I, LLC v. Capital One Bank
(USA), 792 F.3d 1363 (Fed. Cir. 2015). In its ruling,
the district court noted that inventions must do more
than recite generic computer components configured
to perform purely conventional computer functions.
D.

Invalidity Was Affirmed at the Federal
Circuit

The Federal Circuit affirmed the district
court’s judgment of invalidity on November 5, 2019.
The decision came one day after oral argument, and
was issued as a Federal Circuit Rule 36 decision.
During the course of the appeal, Roadie filed a
Motion to Strike 45 pages of a slide presentation that
BAGS added to the joint appendix with its reply brief.
The basis for the motion was that the slides were not
part of the record below. In an Order dated July 16,
2019, the Federal Circuit granted the motion and
struck the slide presentation and the reply brief that
described the slides. BAGS filed no opposition to the
brief.
E.

The District Court Denied Roadie’s Fee
Motion

Roadie first moved for fees on January 22,
2019, as the prevailing party following the district
court’s January 7, 2019 ruling on validity. Although
BAGS filed an opposition brief on February 5, 2019,
BAGS also filed a Notice of Appeal to the Federal

14
Circuit on February 4, 2019 to challenge the district
court’s invalidity ruling. Roadie filed a reply brief on
February 12, 2019, but on February 15, 2019, the
district court denied the fee motion, without prejudice
to refile within 30 days of the Federal Circuit’s
decision on the appeal.
Although the Federal Circuit’s ruling issued on
November 5, 2019, the Mandate was not entered until
December 12, 2019. Within 30 days of the Mandate,
and on December 26, 2019, Roadie filed its Renewed
Motion to Declare This Case Exceptional and Award
Attorneys’ Fees Under 35 U.S.C. § 285.
Roadie’s fee motion was denied by Order and
Memorandum Opinion, both dated February 14,
2020. (App. 4a-13a) The district court noted that
Roadie was the undisputed prevailing party, and
therefore, the only issue was whether the case was
exceptional. (App. 7a)
When considering whether the case warranted
“exceptional” status, the district court focused on the
substantive strength of BAGS’ litigation position with
respect to validity, and barely addressed noninfringement. With respect to invalidity, the district
court noted that Roadie relied on Finnavations LLC
v. Payoneer, Inc., 2019 WL 1236358 (D. Del. Mar. 18,
2019), as highly analogous to the BAGS case. (App.
7a) However, the district court said Finnavations was
more like those “invalidated in the immediate wake of
Alice.” (App. 8a)
The district court also found that BAGS did not
bring this case in bad faith, and then addressed some
of litigation misconduct that Roadie complained of.

15
For motivation, or “nefarious intent,” the district
court saw none in the fact that litigation counsel for
BAGS “failed to grasp meaningful technological and
operational distinctions in the accused product’s
functionality” even where such “evidence…may not
have been supportive of Plaintiff’s infringement
contentions.” (App. 10a)
The district court did not consider
infringement in undertaking the analysis of BAGS’
litigation conduct, stating that such analysis was
would not be necessary because the case was resolved
(on invalidity) “before any claim construction” and
“before taking of significant discovery.” (App. 11a)
Those two assertions are not correct. Discovery was
well advanced at the time of resolution, with the case
having been pending for approximately 17 months.
And claim construction was equally if not more
advanced. In fact, the district court construed in its
January 7, 2019 ruling on invalidity the only term
that both parties disputed the construction of:
“selection to hold delivery.” After doing so, there was
nothing left to construe, and a finding of noninfringement was ready to decide in Roadie’s failure.
SUMMARY OF ARGUMENT
In patent cases, the two primary substantive
issues are infringement and validity. A defendant
must defend both issues. This is not an option.
Defending both issues takes substantial resources in
terms of time, money and distraction from day to day
business.
Defending patent cases is especially
difficult for an underfunded start up company, like
Roadie, when fighting against a successful incumbent
competitor.

16
Here, Roadie moved for judgment on both noninfringement and invalidity. In fact, while both
issues strongly favored Roadie’s position, the noninfringement position was likely the stronger of the
two. While it is not necessary to prevail on more than
one dispositive motion to be a “prevailing party,” the
weakness of the infringement case should have been
taken into account when ruling on exceptionality.
But it wasn’t. This Court should guide future cases,
and correct this one, so that non-infringement is
taken into account, even when a ruling was not made
on the issue. This should be true especially where, as
here, the infringement issue was fully briefed,
Markman was fully briefed, the Markman terms were
not materially disputed, and the district court made a
Markman ruling when deciding invalidity.
As exceptionality is a matter of cumulative
evidence, adding up to a totality of circumstances, a
district court should consider all factors.
As a factual clear error, the district court was
also incorrect in stating that infringement should not
be considered because claim construction had not
been done, when in fact, the district court construed
the only term the parties disputed, in BAGS favor,
when granting Roadie’s invalidity motion. Under
BAGS’ proffered construction, there is no plausible
way Roadie infringed any claims of the ‘336 patent.
In considering litigation misconduct, the
district court failed to acknowledge an obvious effort
to prolong the litigation and its high costs, which
would bear more heavily on the smaller, less funded
newcomer Roadie over the incumbent BAGS with
their $140 million in revenue per year. When

17
confronted with Roadie’s motion for judgment on the
pleadings early in the litigation, BAGS argued that
the motion could not be decided until claim
construction took place for “server,” “processor,”
“transceiver,” “configured,” “baggage information,”
“relay,” “passenger computing device,” and “deliverer
computing device.”
Yet in the Joint Claim
Construction, BAGS identified none of those terms as
needing construction, and instead only disputed one
term: “selection to hold deliver.”
This reversal and substantial change in
Markman positions can only be explained as a desire
to prolong and protract the litigation, at costs more
affordable to BAGS than Roadie.
In addressing the reasonableness of the BAGS
position on validity, the district court failed to
appreciate the similarity between the present case
and Finnavations, a case which the same district
court had decided on very similar facts.
In
Finnavations, the district court invalidated the
patent on the same grounds as in the BAGS patent:
both required nothing more than known computer
hardware and software to perform old functions. In
Finnavations, the old function was the delivery of
accounting data. For BAGS, the old function was
picking up and delivering luggage. BAGS and
Finnavations both argued that their positions were
made strong because they overcame rejections by the
US Patent and Trademark Office (USPTO) under 35
U.S.C. § 101. In Finnavations, the district court held
that such rejections should have put the plaintiff on
notice that it had a bad case, not a good one. The

18
district court here should have used the same logic
when analyzing the weakness of BAGS’ litigation
position.
ARGUMENT
A.

Standard of Review

District Courts may determine whether a case
is exceptional in a case by case exercise of their
discretion, considering the totality of circumstances.
Octane Fitness, LLC v. ICON Health & Fitness, Inc.,
572 U.S. 545, 554 (2014). This Court ruled that an
abuse of discretion standard should be used in
reviewing all aspects of a district court’s § 285
determination. Highmark Inc. v. Allcare Health
Mgmt. Sys., Inc., 572 U.S. 559, 564 (2014). An
appellate court is not precluded by the abuse of
discretion standard from correcting a district court’s
legal or factual errors. Id. at 563 n.2.
A district court would necessarily abuse its
discretion if it based its ruling on an erroneous view
of the law or on a clearly erroneous assessment of the
evidence. Id., at 1748 n.2 (quoting Cooter & Gell v.
Hartmarx Corp., 496 U.S. 384, 405 (1990). When a
district court’s determination of exceptional status is
based on an incorrect legal standard, the decision
must be vacated and remanded for consideration
under the correct law. Kilopass Tech., Inc. v. Sidense
Corp., 738 F.3d 1302, 1310 (Fed. Cir. 2013) (vacating
and remanding because district court’s analysis was
“incomplete” and “inappropriately narrow”).

19
B.

The Federal Circuit Should
Required Infringement Analysis

Have

Roadie does not fault the district court for not
deciding the motion on non-infringement, but Roadie
does assert that it was error for the district court not
to fully consider non-infringement in making the
“exceptional” case determination.
Courts must
consider the totality of circumstances which may
include factors such as frivolousness, motivation,
objective unreasonableness, and the need in
particular circumstances to advance considerations of
compensation and deterrence. Octane Fitness, 134 S.
Ct 1749, at 1756.
Failure to consider noninfringement violates the basic tenants of Octane
Fitness.
When a smaller party like Roadie is dragged
into court by a much larger entity like BAGS, and
forced to defend against a patent it is not infringing
at great expense, time is of the essence – time is
money. Roadie tried very early in this case to have
the case dismissed. It moved within days after
answering the complaint to have the case dismissed
on both invalidity and non-infringement grounds.
That motion stood pending for nearly a year, even
though Roadie’s Fed. R. Civ. P. 12(c) motion is
functionally equivalent to a Fed. R. Civ. P. 12(b)(6)
motion for failure to state a claim. During that year
of pendency, Roadie was forced to engage in extensive
discovery and Markman briefing. In fact, the parties
were schedule to argue their Markman hearing days
before the district court ruled the patent invalid.
In declining to find the case exceptional, the
district court passed on considering non-

20
infringement, but did so on two factual errors. In one
sentence, the district court erred in stating that
“significant discovery” had not been taken, and the
case was resolved (on invalidity) “before any claim
construction.” In fact, discovery was nearly complete,
and claim construction occurred when the district
court construed the only, mildly, disputed term when
ruling on invalidity. Thus, the premise on which the
district court declined to consider non-infringement
was false on both counts.2
The district court’s failure to consider noninfringement because of a mistaken belief that claim
construction had not occurred was clearly erroneous
and an abuse of discretion. Moreover, the district
court should have known, based on its own
scheduling, that a Joint Claim Construction Brief was
filed on December 14, 2018, and that a Markman
hearing was scheduled for January 10, 2019 but was
cancelled only three days ahead of time, on the same
day the district court issued its ruling on invalidity.
Simply stated, it was erroneous to pass on
considering non-infringement as one of the “totality of
circumstances” when deciding if this case was
exceptional.
It makes no sense for the district court to say claim construction
had not taken place. The parties exchanged claim terms on
March 28 2018, and the only term that the parties disputed was
the “selection to hold delivery” claim limitation. BAGS proposed
this construction: “sending a communication to the deliverer via
the server to change delivery time.” Roadie submitted that the
claim limitation needed no construction. However, in ruling the
patent invalid, the district court specifically construed “selection
to hold deliver” language in exactly the way BAGS had proposed
it. Even with their proposed construction, BAGS lost on validity,
and they would have lost on infringement.

2

21
C.

BAGS’ Infringement
Objectively Baseless

Positions

Were

Given the district court’s adoption of BAGS’
construction of “selection to hold delivery,” there is no
possible way that Roadie’s app could infringe the ‘336
patent. BAGS attempted to establish infringement by
having its attorney contact a Roadie driver, through
an Apple messenger app, to direct a bag to be
delivered to the attorney’s neighbor’s house.
In Roadie’s motion to dismiss the infringement
claims, Roadie pointed out that there can be no direct
infringement because the claims require multiple
parties, thus creating divided infringement. BAGS
admitted the claims require “a passenger computing
device,” i.e., a cell phone carried by the passenger, and
a deliverer computing device,” i.e., a cell phone
carried by the deliverer, neither of which are provided
by Roadie. Roadie does not sell a server computer, a
deliverer computing device or a passenger computing
device, all of which are required by the claims.
Aside from the lack of selling or using (for
purposes of method claims) the required hardware,
Roadie pointed out that the complaint lacked any
specific allegations that would support indirect
infringement, such as knowledge that the patents
were valid, and specific direction and control of third
parties to avoid a divided infringement situation.
Even if all the hardware, and use of it was
attributable to Roadie, the claim language, as
reinforced by the BAGS preferred claim construction
of “selection to hold delivery,” make it easy to see that
Roadie cannot infringe under any scenario.

22
While it is not Roadie’s intention to second
guess every determination made by the district court,
non-infringement was just simply left out of the
exceptional case analysis, for reasons stated above to
be unfounded (lack of discovery and lack of claim
construction. We therefore revisit some of the more
salient points presented in the fee motion.
Bags served its infringement contentions on
January 31, 2018, over four months after filing the
complaint in the instant action and nearly seven
months after filing the first complaint filed in Florida.
In its infringement contentions, Bags identified the
“Roadie App” as the accused product. The contentions
track a Roadie delivery request, or “gig,” initiated by
Bags’ lead trial counsel, Stefan V. Stein, on the
morning of August 24, 2017, in which Mr. Stein uses
the Roadie app to send a box from his law office to his
home address.
Bags’ infringement contentions were wholly
deficient and problematic for several reasons. First,
although the ’336 patent claims require a “selection to
hold delivery,” Bags’ infringement evidence is
directed instead to a request “to change the delivery
location”:
On information and belief, a passenger
can choose to hold delivery of the
baggage until a delayed delivery time.
As shown below, the passenger can
contact the deliverer, using the Accused
Device and Roadie’s servers, to change
the delivery location. It is just as likely
that a user will request a delay in
delivery.

23

Second, Bags twisted facts in an attempt to
demonstrate that Roadie plays any role in this
interaction between the “passenger” and the
“deliverer.”
For example, in its infringement
contentions, Bags makes the bald assertion that, “As
shown below, the passenger can contact the deliverer,
using the Accused Device and Roadie’s servers, to
change the delivery location.” (Id.) (emphasis added).
However, as Bags was no doubt aware when it
made this statement, the screenshot in Bags’
infringement contentions comes not from the accused
Roadie App, but instead from the Apple “Messages”
application:

24

(Id.) (emphasis added in red). In other words, the user
did not request a change of delivery location through
the Roadie App and through Roadie’s servers.
Rather, the user sent an iMessage (the Apple iPhone
equivalent of a text message) directly to the driver,
entirely outside of the Roadie environment. Apple
iMessages simply cannot and do not go through a
Roadie server, as required by all the claims of the ’336
patent. The reason Bags cannot show a screenshot
from the Roadie App that depicts a selection to hold
delivery is because the accused Roadie App does not
have this functionality, which was clear and entirely
known to Bags at the time it filed this case.

25
Third, Bags’ so-called infringement “evidence”
was generated by its lead trial counsel, Stefan V.
Stein:

(Id.) (emphasis added in red). There is no evidence
that Roadie directed, instructed, or forced Mr. Stein
to request a change in the delivery location. Instead,
Mr. Stein, of his own volition, sent an iMessage
through the Apple “Messages” app directly to the
delivery driver. Yet, incredibly, Mr. Stein claimed in
Bags’ infringement contentions – which he personally
signed and served – that his personal contact with the
delivery driver was made “using the Accused Device
and Roadie’s servers.”

26
On March 19, 2018, shortly after serving its
non-infringement contentions, Roadie, through its
counsel, sent Bags’ counsel a nine-page letter
detailing these and other fatal infirmities in Bags’
case and implored Bags to dismiss the litigation
before the legal costs escalated. Yet, despite being
specifically warned by Roadie that it had
misrepresented the Apple “Messages” app as being
the Roadie App in its initial infringement contentions,
Bags ignored this critical evidence of noninfringement
and,
unbelievably,
doubled
down
on
the
misrepresentation.
In a sworn declaration filed with the Court, Mr.
William Stein stated that he personally took a flight
from Atlanta to Orlando, checked in a piece of
luggage, and intentionally left it at the Orlando
airport baggage claim to simulate a “lost luggage”
scenario.
Mr. Stein then personally initiated a
Roadie “gig,” requesting that a driver pick up his
“lost” luggage and deliver it to his office in Orlando.
Thus, as with Mr. Stefan Stein and his box in the
infringement contentions, Mr. William Stein was both
the sender and the recipient of the “lost luggage”
depicted in Bags’ amended infringement contentions.
This second Roadie “gig” initiated by Bags’
litigation counsel was incorporated in Bags’ amended
infringement contentions, which were served on June
8, 2018, over nine months after the filing of the
complaint in this action and over eleven months after
Bags first accused Roadie of infringement in the first
Florida case.
With respect to the “selection to hold delivery”
limitation, Bags added the italicized passage below,

27
along with the second screenshot, which is of the
Android messaging app and not the Roadie App, in its
amended infringement contentions:
On information and belief, a passenger
can choose to hold delivery of the
baggage until a delayed delivery time.
As shown below, the passenger can
contact the deliverer, using the Accused
Device and Roadie’s servers, to change
the delivery location. It is just as likely
that a user will request a delay in
delivery.
Furthermore, on information and belief,
the mobile number associated with the
deliverer may in fact be provided by the
Accused Product. When the passenger
contacts the deliverer via the Accused
Product, the dialogue is between the
passenger’s mobile number and the
mobile number provided by the Accused
Product to the deliverer. As such, each
message sent between the passenger and
deliverer may in fact pass within the
Accused Product’s server. Thus, each
input that is exchanged among the
Accused Product, deliverer and/or
passenger may be (1) received by the
processor via the transceiver and (2)
transmitted by the processor via the
transceiver.

28

Putting aside for the moment whether the text
messages depicted in the screenshots above can fairly
be considered a “selection to hold delivery,” it is
plainly obvious that these screenshots are not of the
accused Roadie app. Instead, they are taken from the
default messaging apps for an iPhone and an Android
smartphone. Even if Roadie did provide telephone
numbers to its delivery drivers, which it does not,
Bags has zero basis for claiming that a text message
drafted by the smartphone user and sent through the
smartphone’s default messaging app would pass
through a Roadie server.
Moreover, it was only after the district court
had ruled in Roadie’s favor and after Bags had filed
its appeal of the invalidity ruling to the Federal
Circuit did Bags admit that it had committed an

29
ethical violation in preparing its amended
infringement contentions. Specifically, Bags revealed
– for the first time – that Mr. William Stein initiated
a discussion with a Roadie delivery driver, outside the
presence of counsel, on May 4, 2018, approximately
ten months after Bags had commenced litigation
against Roadie, concerning Bags’ infringement
theory:
Moreover, Bags’ counsel asked the
Roadie driver whether the +14073091418
mobile number as shown was his
number or a number supplied by Roadie.
See William Stein Declaration, ¶¶ 4-5,
concurrently filed herewith. The Roadie
driver said half of the time it was his
mobile number and the other half the
mobile number was supplied by Roadie.
Id. This response wholly contradicts
Roadie’s statement that “Roadie does
not provide phone numbers to Roadie
drivers.” (D.I. 120 at 16).
Roadie was completely unaware of this
conversation between counsel for Bags and a Roadie
delivery driver. Indeed, Bags made no mention of this
conversation in its infringement contentions or in its
interrogatory responses, nor did Bags update its
initial disclosures to identify the Roadie delivery
driver.
Bags’ misconduct here bears a striking
resemblance to the misconduct encountered by Judge
Robinson in Microsoft Corp. v. Alcatel Bus. Sys., No.
07-090-SLR, 2007 WL 4480632 (D. Del. Dec. 18,
2007). In that case, litigation counsel for the plaintiff

30
patent holder, Microsoft, purchased an allegedly
infringing Alcatel telecommunications system four
months after Microsoft had filed its complaint for
patent infringement. Id. at *1. Plaintiff’s counsel
then arranged for installation of the accused Alcatel
system at its offices in Washington, D.C. Id. One of
the technicians responsible for the installation, Mr.
Po Ching Lin, identified himself as an employee of
Alcatel-Lucent, a company affiliated with one of the
named defendants in the litigation. Id. Mr. Lin was
then directed by plaintiff’s counsel to provide training
to two lawyers representing the plaintiff on the
operation of the accused Alcatel system, and these
two lawyers further questioned Mr. Lin regarding the
administration, use, and configuration of the accused
Alcatel system. Id. Plaintiff’s counsel then used this
information to prepare its expert report on
infringement. Id.
Judge Robinson determined that plaintiff’s
counsel had violated Model Rule 4.2, which prohibits
a lawyer from communicating directly with a party
represented by another lawyer in the matter about
the subject of the representation.
Id. at *1.
Alternatively, Judge Robinson held that, if Mr. Lin
were deemed to be an unrepresented party (since he
was an employee of Alcatel-Lucent, not Alcatel
Business Systems), the actions of plaintiff’s counsel
nevertheless violated Model Rules 4.1(a), 4.3, and
8.4(c):
In the alternative, [plaintiff’s counsel]
was neither forthright nor disinterested
when it consciously put Mr. Lin, without
the benefit of legal representation, in the
unwitting position of being directed to

31
engage in conduct that has direct
consequences vis a vis his employer and
the subject matter of this litigation,
conduct that violates Model Rules 4.1(a),
4.3 and 8.4(c).
Id. at *1 n.5. Judge Robinson accordingly sanctioned
plaintiff by disqualifying the two lawyers involved in
the misconduct from the litigation, disqualifying
plaintiff’s expert witness on infringement, precluding
plaintiff from using the fruits of the misconduct, and
imposing a monetary sanction on plaintiff for the
motions practice resulting from the violation. Id. at
*2.
A similar situation exists here. Counsel for
Bags consciously put a Roadie delivery driver,
without the benefit of counsel, in the unwitting
position of being directed to engage in conduct that
has direct consequences vis a vis Roadie and the
subject matter of this litigation. The only meaningful
distinction between the situation at hand and the one
encountered by Judge Robinson is that Mr. Lin was
an employee of Alcatel-Lucent, a company affiliated
with the defendant, whereas Roadie delivery drivers
are independent contractors, not employees of Roadie.
Since the Roadie delivery driver is not a Roadie
employee, Model Rule 4.2 may not apply here.
However, as Judge Robinson found, Bags’ conduct
nevertheless violates Model Rule 4.3, which concerns
conduct toward unrepresented parties, and Rules
4.1(a) and 8.4(c), which deal with deceptive and
dishonest conduct.
Bags should have looked at the discovery
Roadie made available to it, instead of violating

32
multiple rules of professional conduct with its
surreptitious behavior.
Yet, after aggressively
pursuing production of Roadie app source code during
discovery, Bags never bothered to review it, even
though it had been available for Bags’ inspection for
months. In a September 25, 2018 e-mail, counsel for
Bags acknowledged the availability of the source code
for review and informed Roadie that it would identify
an expert to conduct the source code review pursuant
to the Protective Order:
We will provide the Confidentiality
Statement of our chosen expert witness
to review Roadie’s source code per the
Protective Order shortly. Can you
confirm the location of this source code?
Is it in your office or in Atlanta, GA?
Bags never followed up. Bags’ failure to review
the Roadie source code was entirely consistent with
its conduct in maintaining this case. After Roadie
sent its March 19, 2018 letter detailing the infirmities
in Bags’ infringement theory, Roadie repeatedly
implored Bags to either dismiss its case or to provide
any justification for its decision to proceed, including
through e-mail correspondence on March 29, 2018,
April 16, 2018, April 30, 2018, and June 5, 2018.
“[I]t is clear that the aim of § 285 is to
compensate a defendant for attorneys’ fees it should
not have been forced to incur. Kilopass Tech., Inc. v.
Sidense Corp., 738 F.3d 1302, 1313 (Fed. Cir. 2013).
Where a prevailing party “has obtained excellent
results, his attorney should recover a fully
compensatory fee.” Mathis v. Spears, 857 F.2d 749,
755 (Fed. Cir. 1988) (quoting Hensley v. Eckerhart,

33
461 U.S. 424, 435 (1983)) (internal quotations
omitted).
Moreover, the district court has the
discretion to award fees and costs incurred during any
appeals. Therasense, Inc. v. Becton, Dickinson & Co.,
745 F.3d 513, 517 (Fed. Cir. 2014).
Here, Roadie prevailed on every single motion
of significance – its motion to dismiss the first Florida
case, its motion to transfer the second Florida case to
this Court, its motion for judgment on the pleadings,
and its motion to strike Bags’ reply appeal brief.
There is no question that Roadie “has obtained
excellent results” in its litigation with Bags. Also,
while Roadie prevailed on the invalidity motion, it
need not have “prevailed” on the non-infringement
motion by having a court ruling. However, once made
a prevailing party, Roadie should have had the benefit
of the court’s consideration of whether it should have
been brought into court in the first place, by looking
at the soundness of the infringement charge. The
infringement claim is what brought Roadie into this
Court, not the validity of the patent. Roadie did not
seek to declare the patent invalid sua sponte. It did
so to defend the infringement claim. Justice demands
that Roadie’s non-infringement be put on the scales of
justice for an award of fees.
D.

BAGS’ Position on
Objectively Baseless

Invalidity

Was

In denying Roadie’s fee motion, the district
court said that BAGS litigation position with respect
to validity was not baseless and did not rise to the
level of “nefarious intent.” The district court noted
Roadie’s reliance of the Finnavations which Roadie
argued had involved a patent similar to the BAGS

34
patent. However, the district court said Finnavations
was more like the cases that followed the Alice Corp.
Pty. v. CLS Bank Int’l, 134 S. Ct. 2347, 2354 (2014).
And because Finnavations and the present case were
not analogous, the district court said that BAGS’
position on validity was not objectionably basis. (App.
8a)
In the brief discussion given by the district
court, it cannot be seen how Alice and Finnavations
are similar, but Finnavations and BAGS are not. In
reading the Finnavations decision, which came out of
the same district court as the present case, the bulk
of the decision addressed the fact that the USPTO had
rejected the claims as not being patent eligible, and
the applicant overcame those objections. This, the
patent owner contended, proved that the case was not
weak. The district court had an opposite view: the
USPTO rejections put the patent owner on notice of
the weakness of his patent claims.
This is exactly the same argument made by
BAGS in the present case. Like the bookkeeping
patent in Finnavations, the ’336 patent had been
rejected by the USPTO on Section 101 grounds
multiple times during prosecution. While Bags
claims that overcoming two Section 101 rejections
made it more advantageous to assert the ’336 patent,
Roadie submits that having to endure repeated
rejections on eligibility grounds during prosecution
should have put Bags on notice of the vulnerability of
the ’336 patent, just like the district court in
Finnavations did. Finnavations, 2019 WL 1236358 at
*2 n.4 (“Additionally, the four Section 101 rejections
put Plaintiff on notice that its claims were of dubious
patentability.”).

35
BAGS did not have a reasonable basis for
asserting a clearly invalid patent. It should also be
noted that, even though Finnavations involved
accounting software, the claims required the same
hardware (e.g., servers) as in the ‘336 patent. Both
patents involved organizing and managing data, with
standard computer hardware run by unremarkable
software.
The fact that BAGS had no reasonable argument
regarding validity, and was put on notice of the
patent’s vulnerability to an attack under 35 U.S.C.
§ 101 by the USPTO, BAGS weak position on validity
should weigh in favor of granting exceptional status.
E.

BAGS Abandonment of Claim Construction
Positions Demonstrates Ill Intent

When Roadie filed its Fed. R. Civ. P. 12(c)
motion, it was clear that Roadie should prevail on
both invalidity and non-infringement. As everyone
familiar with patent litigation knows, if claim
construction is required to determine either validity
or infringement, the parties will have to wait until
Markman rulings are made before the merits of the
case can be decided. When the case was filed in
Florida on August 24, 2017, the district court entered
Case Management Report that docketed a Markman
hearing of August 16, 2018. Since the invalidity and
non-infringement issues were so clear, Roadie moved
to dismiss on February 6, 2018.
In opposing Roadie’s dispositive motions,
BAGS argued that factual issues needed resolving,
including whether the claimed elements were not
well-known, not routine and unconventional. BAGS

36
even argued that the intrinsic evidence supports a
finding that the claimed elements were not “wellunderstood, routine, [and] conventional activity
previously engaged in by researchers in the field. In
deciding the ‘336 patent was invalid, the district court
found all claimed features to be the opposite of what
BAGS had argued in its opposing brief. In fact, the
district court held that BAGS’ position was “contrary
to law” since all BAGS was claiming was applying
an abstract idea, and using generic computer
components to perform generic computer functions.
BAGS also argued in opposition to Roadie’s
Rule 12(c) motion that it was “clear from the face of
the ‘336 patent that claim construction is necessary.”
Appx157. BAGS didn’t stop with just a general
statement. It then recited the following terms that
needed to be construed:
server, processor,
transceiver, configured, baggage information, relay,
passenger computing device, and deliverer computing
device. These claim term assertions were made on
March 3, 2018.
By May 9, 2018, BAGS had abandoned every
one of the eight claim terms noted above, when it
jointly filed with Roadie a Joint Claim Construction
Chart where the only term that the parties dispute,
and thus needed construction for purposes of deciding
infringement, was the term “selection to hold
delivery.” From these facts, and the timing, it
appears that BAGS said what it needed to say in
hopes of having the Fed. R. Civ. P. 12(c) motion either
denied, or delayed until after a formal Markman
hearing. That hearing would have been on January
10, 2019, at which time Roadie would have been

37
required to spend substantial resources for discovery
and claim construction briefing.
When the district court ultimately decided the
invalidity half of the motion, BAGS was given its
proposed construction of “selection to hold delivery”
for purposes of deciding validity. But with that being
the only term requiring construction, and with the
term being construed by the court, a noninfringement ruling would have been easily made.
The hold deliver selection has to be made “via the
server,” and the server is part of the accused
apparatus.
As noted above, when preparing
infringement contentions, BAGS used an Apple
server to send a message using Apple software and
interfaces. The claims required that Roadie’s server
would have been used to infringe, and it clearly and
unequivocally was not.
Switching positions on claim construction like
this is clear evidence of bad intent and wrongful
motivations. Without recognizing the obvious bad
intent, the district court did not properly apply the
applicable law for determining exceptional status.
Startup companies like Roadie cannot be sued
by companies who fail to make an adequate prefiling
investigation. A charge of patent infringement is a
serious thing. It calls into question your corporate
integrity, and requires substantial resources to
defend. The district courts have tools at their disposal
to discourage the filing of baseless suits. One of the
most powerful tools is to make the plaintiff pay the
defendant’s fees, through the statutory process of 35
U.S.C. § 285, when a baseless suit is filed.

38
Roadie was the accused infringer in this case,
and when the accused infringer prevails, factors to
consider when determining exceptional status include
the closeness of the question, prefiling investigation
and discussions with defendant, and litigation
behavior. Computer Docking Station Corp. v. Dell,
Inc., 519 F.3d 1366, 1379 (Fed. Cir. 2008). Where a
patentee prolongs litigation in bad faith, an
exceptional finding may be warranted. Id.
When Roadie pointed out the flaws in BAGS’
infringement contentions, the district court seemed to
dismiss prefiling and post-filing investigation, and
gave encouragement to plaintiffs who “fail[ed] to
grasp meaningful technological and operational
distinctions in the accused product’s functionality”
even where such “evidence…may not have been
supportive of Plaintiff’s infringement contentions.”
Appx7. This cannot be. It is incumbent upon
plaintiffs and their counsels to have a basis for
bringing suit. Fed. R. Civ. P. 11. “Failing to grasp
meaningful technological and operational distinctions”
should be cited as a reason to grant exceptional
status. The district court’s “failure to grasp” finding
should have weighed in Roadie’s favor in determining
exceptional status.
F.

Summary
of
Exceptionality

Factors

Favoring

First and foremost, the invalidity case was not
close. The patent covered merely doing that which
you could do by hand, with a computer, and gaining
the expected improvement in speed.

39
Second, the district court should have
considered the strength of Roadie’s non-infringement
position.
Third, BAGS asserted claim construction was
needed, then withdrew every term it said needed
construction, all in an effort to avoid having the
dispositive motions decided.
Fourth, BAGS used its own attorneys to
concoct a bogus infringement case, one that the
attorneys said used the Roadie app to contact a driver
when in fact the contact was made through a separate
messaging app.
Fifth, those same attorneys violated ethics
rules when they contacted a Roadie driver to find out
how the Roadie app worked. And further, BAGS’
attorneys placed themselves into the position of being
fact witnesses, since their testimony was the only
evidence of infringement, albeit their evidence
disproved infringement.
Sixth, the district court did not even attempt to
consider the financial situations of the two parties,
and how deterrence requires such a consideration.
Roadie, being the much smaller party, was severely
impacted by the expense of defending this case,
whereas for BAGS, they appeared to be on strong
financial footing when selling themselves for $275
million.
Seventh, the district court failed to
acknowledge both the violation of Rule 7 of the
Federal Rules of Civil Procedure, in not updating the
BAGS corporate disclosure, and the fact that the

40
failure had the effect of hiding a motive – keeping the
case alive was not based on merits, but based on
keeping an allusion that a company that was up for
sale, had a patent based monopoly on its business
model, thus enhancing its value, or at least justifying
its negotiated price.
CONCLUSION
For all the foregoing reasons, Roadie
respectfully requests that the Petition for Certiorari
be granted.
Date: April 5, 2021
/s/ Edward A. Pennington
Edward A. Pennington
Counsel of Record
SMITH, GAMBRELL & RUSSELL, LLP
1055 Thomas Jefferson St., NW, Suite 400
Washington, DC 20005
(202) 263-4300
epennington@sgrlaw.com
Attorney for Petitioner

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Judgment of
The United States Court of Appeals
for the Federal Circuit
entered November 4, 2020 ............................... 1a
Order of
The United States District Court
For the District of Delaware
entered February 14, 2020 ............................ 3a
Memorandum Opinion of
The United States District Court
For the District of Delaware
entered February 14, 2020 ............................ 4a
35 U.S.C. § 285 .......................................................... 14a
U.S. Patent No. 9,659,336 B2................................. 15a

1a
ENTERED NOVEMBER 4, 2020
NOTE: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
BAGGAGE AIRLINE GUEST SERVICES, INC.,
Plaintiff-Appellee
v.
ROADIE, INC.,
Defendant-Appellant
2020-1540
Appeal from the United States District Court for
the District of Delaware in No. 1:18-cv-00707-RGA,
Judge Richard G. Andrews.
JUDGMENT
STEFAN V. STEIN, Gray Robinson, PA, Tampa,
FL, argued for plaintiff-appellee. Also represented
by COLE CARLSON; WILLIAM STEIN, Fort
Lauderdale, FL.
EDWARD A. PENNINGTON, Smith, Gambrell &
Russell, LLP, Washington, DC, argued for defendantappellant. Also represented by JOHN P. MOY.

2a

THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (MOORE,
O’MALLEY, and TARANTO,
Circuit Judges).
AFFIRMED.
See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
November 4, 2020
Date
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
ENTERED FEBRUARY 14, 2020
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE

BAGGAGE AIRLINE
GUEST SERVICES, INC.,
Plaintiff,

Civil Action No.
18-707-RGA

v.
ROADIE, INC.,
Defendant.

ORDER
For the reasons stated in the accompanying
memorandum opinion, IT IS HEREBY ORDERED
that Defendant's Renewed Motion to Declare This
Case Exceptional and Award Attorneys' Fees Under
35 U.S.C. § 285 (D.I. 133) is DENIED.
Entered this 14 day of February, 2020.
United States District Judge

4a
ENTERED FEBRUARY 14, 2020
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE

BAGGAGE AIRLINE
GUEST SERVICES, INC.,
Plaintiff,

Civil Action No.
18-707-RGA

v.
ROADIE, INC.,
Defendant.

MEMORANDUM OPINION
Neal C. Belgam and Eve H. Ormerod, SMITH,
KATZENSTEIN & JENKINS, LLP, Wilmington, DE,
and Stefan V. Stein and Cole Carlson,
GRA YROBINSON, P.A., Tampa, FL, attorneys for
Plaintiff.
Pilar G. Kraman, YOUNG CONAWAY STARGATT &
TAYLOR, LLP, Wilmington, DE, and Edward A.
Pennington, John P. Moy, John P. Pennington, and
Darlene K. Tzou, SMITH, GAMBRELL & RUSSELL
LLP, Washington, D.C., attorneys for Defendant.
February 14, 2020.

5a
Before me is Defendant's Renewed Motion to
Declare This Case Exceptional and Award Attorneys'
Fees Under 35 U.S.C. § 285. (D.I. 133). I have
reviewed the parties' briefing. (D.I. 134, 136, 138).
Because I do not find this to be an exceptional case, I
will deny Defendant's motion.
I.

BACKGROUND

On August 24, 2017, Plaintiff Baggage
Airlines, Inc. filed suit against Defendant Roadie, Inc.
alleging infringement of U.S. Patent No. 9,659,336
("the '336 patent") in the United States District Court
for the Middle District of Florida. (D.I. 1). Defendant's
motion to transfer the action for improper venue (D.I.
8) was granted and the case was transferred to the
District Court for the District of Delaware, where it
was docketed as the present action. (D.I. 67).
Defendant moved for judgment on the
pleadings on the basis of invalidity under 35 U.S.C.
§ 101, or, alternatively, that the complaint failed to
state a claim of infringement. (D.I. 39). On January 7,
2019, I granted the motion and found the '336 patent
to be invalid under § 101. (D.I. 115). Defendant filed
its first Motion for Attorneys' Fees on January 22,
2019 (D.I. 119), which I dismissed without prejudice
pending Plaintiff's appeal of the case. (D.I. 125). After
the Federal Circuit affirmed this court's ruling,
Defendant filed its renewed motion. (D.I. 133).
Defendant seeks approximately $800,000 in
attorneys' fees. (D.I. 134 at 20).

6a
II.

STANDARD OF REVIEW

The Patent Act provides that the court "in
exceptional cases may award reasonable attorney fees
to the prevailing party." 35 U.S.C. § 285. The
Supreme Court has defined an "exceptional" case as
"simply one that stands out from others with respect
to the substantive strength of a party's litigating
position (considering both the governing law and the
facts of thedge: case) or the unreasonable manner in
which the case was litigated." Octane Fitness, LLC v.
ICON Health & Fitness, Inc., 572 U.S. 545, 554
(2014). When considering whether a case is
exceptional, district courts are to exercise their
discretion on a case-by-case basis, considering the
totality of the circumstances. Id. Relevant factors for
consideration include "frivolousness, motivation,
objective unreasonableness (both in the factual and
legal components of the case) and the need in
particular circumstances to advance considerations of
compensation and deterrence." Id. at 554 n.6 (internal
quotation marks omitted). A movant must establish
its entitlement to attorneys' fees under Section 285 by
a preponderance of the evidence. Id. at 557.
III.

DISCUSSION

It is undisputed that Defendant is the
prevailing party. Thus, the only issue is whether the
case is exceptional.

7a
i.

"The Substantive Strength of a
Party's Litigating Position"

In Octane Fitness, the Supreme Court rejected
as "overly rigid" and "too restrictive" the Federal
Circuit's previous § 285 case law requiring "both that
the litigation is objectively baseless and that the
plaintiff brought it in subjective bad faith." 572 U.S.
at 555. Instead, it held that "a case presenting either
subjective bad faith or exceptionally meritless claims
may sufficiently set itself apart from mine-run cases
to warrant a fee award." Id.
Defendant relies heavily upon this Court's
opinion in Finnavations LLC v. Payoneer, Inc., 2019
WL 1236358 (D. Del. Mar. 18, 2019) to argue that
Plaintiff had no reasonable justification for bringing
its claim for infringement because the patent claims
are directed to an abstract idea and lack an inventive
concept. (D.I. 134 at 8). Defendant states that patents
directed to coordinating and monitoring shipments,
such as the patent-in-suit, "have been routinely and
uniformly invalidated." (Id.) . Defendant argues that,
"under controlling Federal Circuit precedent,
[Plaintiffs] 'specially configured system' that led to
purported efficiency gains could not serve as an
inventive concept." (Id. at 5).
Here, the use of generic and non-specific
hardware to communicate information between
different computing devices to coordinate a task was
not sufficient to make the patent claims directed at a
non-abstract idea. Baggage Airline Guest Servs, Inc.
v. Roadie, Inc., 351 F. Supp. 3d 753, 759-60 (D. Del.

8a
2019). Nor was there satisfaction of the inventive
concept requirement where Plaintiff pointed to the
specification, and not the claims, to describe an
improvement offered by the invention, and could not
identify anything in the patent to support an
inference that further claimed limitations were more
than a conventional idea implemented using generic
computer technology. Id. at 761-62.
In Finnavations, I granted motions for
exceptional case and attorneys' fees based on patent
claims that were "plainly directed at a patent
ineligible concept." 2019 WL 1236358 at *2. In that
case, the patent was similar to those invalidated in
the immediate wake of Alice. Id. at 1. Although I
ultimately found the claims of the '336 patent to be
directed to the abstract idea of coordinating and
monitoring baggage delivery, and containing no
inventive concept, the case was not "exceptionally
meritless." Octane Fitness, 572 U.S. at 555. Nor do I
find that Plaintiffs case was brought in bad faith.
Therefore, I will not grant attorneys' fees on the basis
of the lack of substantive strength of Plaintiffs
litigating position.
ii. "The Unreasonable Manner in Which
the Case was Litigated"
In Octane Fitness, the Supreme Court clarified
that a party's litigation conduct need not be
independently sanctionable in order to justify an
award of attorney fees under§ 285. 572 U.S. at 546
("[A] district court may award fees in the rare case in
which a party's unreasonable conduct-while
not necessarily independently sanctionable is
nonetheless so 'exceptional' as to justify an award of

9a
fees."). The Federal Circuit has held that Octane
Fitness "gave no indication that [the Federal Circuit]
should rethink [its] litigation misconduct line of § 285
cases" and stated that "district courts can turn to []
pre-Octane Fitness case law for guidance" regarding
such arguments. SFA Sys., LLC v. Newegg Inc. 793
F.3d 1344, 1349 (Fed. Cir. 2015). "[L]itigation
misconduct and unprofessional behavior may suffice,
by themselves, to make a case exceptional under §
285." Monolithic Power Sys. Inc. v. 02 Micro Int'! Ltd.,
726 F.3d 1359, 1366 (Fed. Cir. 2013) (internal
quotation marks omitted).
"[M]any forms of misconduct can support a
district court's exceptional case finding, including ...
litigation misconduct; vexatious, unjustified, and
otherwise bad faith litigation; a frivolous suit; or
willful infringement." Id. In Monolithic Power, the
Federal Circuit upheld a district court's exceptional
case finding based on "an overall vexatious litigation
strategy and numerous instances of litigation
misconduct. ... " Id. at 1367. The plaintiff in
Monolithic Power offered false testimony, attempted
to cover up its false testimony, and engaged in a
litigation strategy--over the course of a decade--of
suing the same accused infringer's customers "to
prompt" a declaratory judgment action from the
supplier, only to move to dismiss the cases "after
substantial litigation had taken place." Id. Likewise,
in Eon-Net LP v. Flagstar Bancorp, the Federal
Circuit upheld a district court's exceptional case
determination based upon " [plaintiff's] pursuit of
baseless infringement claims, [] improper purpose of
bringing the lawsuit against [ defendant] to obtain a
nuisance value settlement, [] destruction of evidence,

10a
and []offensive litigation tactics." 653 F.3d 1314,
1320, 1324-26 (Fed. Cir. 2011).
Defendant puts forth various arguments in
support of its claim that this case was litigated in an
unreasonable matter. First, on appeal to the Federal
Circuit after Defendant's motion for judgment on the
pleadings was granted, Plaintiff made several new
arguments not previously raised before this court.
(D.J. 134 at 2, 6). Defendant states that Plaintiff
violated the Federal Rules of Appellate Procedure by
inserting forty-five pages of presentation slides–not
originally part of the record–into the joint appendix
presented at the appeal and referencing these slides
in Plaintiffs reply appeal brief. (Id. at 7). Defendant
alleges that Plaintiff "refused to withdraw the
offending material," and when Defendant filed a
motion to strike the material, Plaintiff failed to file an
opposition to the motion, thereby escalating legal
expenses incurred by the Defendant. (Id.).
Defendant also asserts that litigation
misconduct was present in this case because Plaintiffs
infringement evidence was directed to a request "to
change the delivery location" even though the '336
patent claims require a "selection to hold delivery."
(Id. at 10). Defendant contends that Plaintiff
misrepresented facts in an attempt to align the
operation of the accused product with its
infringement contentions. (Id. at 11-12). Defendant
states that Plaintiffs infringement evidence was
moreover improperly generated by its lead trial
counsel, who stated that he had used the accused
device and Defendant's servers to make personal
contact with a delivery driver, when a separate chat
messaging system was in fact used. (Id. at 13).

11a
Without facts to suggest nefarious intent, I will
not impute it where I do not see it. The facts
Defendant puts forth in its briefing are not
inconsistent with the possibility that Plaintiffs
counsel, while investigating its case, failed to grasp
meaningful technological and operational distinctions
in the accused product's functionality, such that the
"evidence" that was collected may not have been
supportive of Plaintiffs infringement contentions. I do
not find these acts self-evidently to go as far as
qualifying as part of a vexatious litigation strategy or
pattern of offensive litigation tactics. See Monolithic
Power, 726 F.3d at 1367; Eon-Net, 653 F.3d at 1320.
Due to the resolution of the case before any claim
construction, and before the taking of significant
discovery, I cannot say what Plaintiff might have
been able to prove with regards to infringement. See
SFA Systems, LLC v. Newegg Inc., 793 F.3d 1344
(Fed. Cir. 2015) (rejecting the argument that the
district court erred when it stated that "evidence of
the frivolity of the claims must be reasonably clear
without requiring a 'mini-trial' on the merits for
attorneys' fees purposes.").
Defendant also alleges misconduct on the basis
that Plaintiff's counsel Mr. William Stein initiated a
discussion with one of Defendant's delivery drivers
outside of the presence of counsel. (D.I. 134 at 16). The
facts Defendant presents regarding this discussion
are highly distinguishable from those of the case
involving misconduct which it argues bears "striking
resemblance" to the case at hand. (Id.). In Microsoft
Corp. v. Alcatel Bus. Sys., two of the plaintiffs lawyers
directed an employee of a company affiliated with one
of the named defendants in the litigation to provide
them with training on the operation of the accused

12a
system. 2007 WL 4480632, at *1 (D. Del. Dec. 18,
2007). The lawyers in that case questioned the
employee regarding the administration, use, and
configuration of the accused system. Id. Plaintiff's
counsel then used the information it gathered during
this discussion to prepare its expert report on
infringement. Id.
Here, according to Defendant, Plaintiff's
counsel asked a delivery driver whether the mobile
number shown on the Defendant's product belonged
to him or was a number supplied by Defendant. (D.I.
134 at 16). I do not agree that this conduct rises to the
level of that observed by the court in Alcatel.
Defendant posits that the "only meaningful
distinction" between the cases is that the employee
questioned in Alcatel was a company employee and
not an independent contractor, as is the case of the
delivery driver here. (Id. at 17).1 There are numerous
other distinctions, however, including that the
delivery driver was not directed to train Plaintiffs
lawyers as to the operation of the accused product.
Nor is there any indication that he was subject to any
further questioning about the product. I do not
consider asking the delivery driver about the phone
number display on the accused product to be
equivalent in its seriousness to obtaining a tutorial on
the product's administration, use, and configuration,
such that it can be said that Plaintiff's counsel
litigated this case in an offensive or reasonable
manner. See Eon-Net, F.3d at 1320.
As Defendant seems to acknowledge, counsel interviewing the
other side's employees without the consent of opposing counsel
raises ethical issues not present with a non-employee. (D.I. 134
at 17-18).
1

13a
I do not find that the recited examples of
conduct taking place over the course of the litigation
support the existence of "an overall vexatious
litigation strategy." See Monolithic Power, 726 F.3d at
1367. Unlike in Monolithic Power and Eon-Net,
Defendant does not point to any recurring patterns in
Plaintiff's litigation conduct, nor to any other
aggravating factors-such as false testimony,
destruction of evidence, or offensive conduct-that led
those courts to find litigation misconduct. See
Monolithic Power, 726 F.3d at 1366-67; Eon-Net, 653
F.3d at 1320.
In sum, Defendant has not demonstrated by a
preponderance of the evidence that this case "stands
out from others with respect to the substantive
strength of [Plaintiff's] litigating position . . . or the
unreasonable manner in which the case was
litigated." Octane Fitness, 572 U.S. at 554.
Accordingly, I conclude that this case is not
exceptional under§ 285, and I will therefore deny
Defendant's motion for attorneys' fees..
a.

Motion for Costs

To the extent that Defendant seeks $12,700 in
costs on the basis of a determination that this case is
exceptional, I will deny this request. I do not reach the
issue of costs that may be granted under the local
rules.
IV.

CONCLUSION

For the reasons set forth above, I will DENY
Defendant's renewed motion for attorneys' fees. A
separate order, consistent with this Memorandum
Opinion, will be entered.

14a
35 U.S. Code § 285. Attorney fees
The court in exceptional cases may award reasonable
attorney fees to the prevailing party.
(July 19, 1952, ch. 950, 66 Stat. 813.)

15a
(12)
(10)
(45)

United States Patent
Mateer
Patent No.: US 9,659,336 B2
Date of Patent: May 23, 2017

(54)

MOBLE BAGGAGE DISPATCH SYSTEM
AND METHOD

(75)

Inventor: Craig Mateer, Orlando, FL (US)

(*)

Notice:

(21)

Appl. No.: 13/443,640

(22)

Filed:

(65)

Subject to any disclaimer, the term of
this patent is extended or adjusted
under 35 U.S.C. 154(b) by 0 days.

Apr. 10, 2012
Prior Publication Data

US 2013/0268454 A1
(51)

Int. Cl.
G06Q 50/28
G06Q 10/08

Oct. 10, 2013

(2012.01)
(2012.01)

(52)

U.S. Cl.
CPC …. G06Q 50/28 (2013.01); G06Q 10/08
(2013.01); G06Q 10/083 (2013.01)

(58)

Field of Classification Search
CPC ….G06Q 10/0833
USPC …. 705/33, 26.62; 340/539.13; 455/422.1
See application file for complete search history.

16a
(56)

References Cited
U.S. PATENT DOCUMENTS

4.711,994 A

12/1987 Greeberg

4.984.156 A

1/1991

Mekata

5,322,473 A

6/1994

Hofstra et al.

5,401,944 A

3/1995

Bravman et al.

5,793,639 A

8/1998

Yamazaki

5,835,376 A

11/1998 Smith et al.

5,866,888 A * 2/1999

Bravman et al. ……. 235/375

5,914,671 A

6/1999

Tuttle

6,044,353 A

3/2000

Pugliese, III

6.119,096 A

9/2000

Mann et al.

6.127,917 A

10/2000 Tuttle

6,430,496 B1

8/2002

Smith et al.

6.509,829 B1

1/2003

Tuttle

6,512,964 B1

1/2003

Quackenbush et al.

6,542,081 B2

4/2003

Torch

6,544,173 B2

4/2003

West et al.

6.544,174 B2

4/2003

West et al.

6.594,547 B2

7/2003

Manabe et al.

6.616,606 B1

9/2003

Petersen et al.

6.662,078 B1

12/2003 Hardgrave et al.

6,694,248 B2

2/2004

Smith et al.

6,696,954 B2

2/2004

Chung

6.703,935 B1

3/2004

Chung et al.

6,711,463 B2

3/2004

Tozuka et al.

6,720,874 B2

4/2004

Fufido et al.

17a
6.807,458 B2

10/2004 Quackenbush et al.

6,816,762 B2

11/2004 Hensey et al.

6.845,293 B1 * 1/2005

Ananda ……………. 700/226

(Continued)
OTHER PUBLICATIONS
Airportbags Plus News Archives, Welcome to Plus”,
Sep. 12, 2012 (17 pages).
(Continued)
Primary Examiner – Akiba Allen
(74) Attorney, Agent, or Firm – Terry M. Sanks, Esq.;
Beusse Wolter Sanks & Maire, PLLC
(57)

ABSTRACT

The disclosure relates to an apparatus, method and
system for dispatching baggage. The apparatus
includes a processor configured to receive baggage
information associated with a passenger; associate
the baggage information with a delivery person,
where the delivery person is associated with delivery
person information; and transmit at least apportion
of the baggage information and the delivery person in
formation to a passenger computing device associated
with the passenger.
20 Claims, 9 Drawing Sheets

18a

(56)

References Cited
U.S. PATENT DOCUMENTS

6,870,477 B2

3/2005

Gruteser et al.

6,892,066 B2

5/2005

Detweiler et al.

6,943,688 B2

9/2005

Chung et al.

6,960,715 B2

11/2005

Riopelle

6,988,989 B2

1/2006

Weiner et al.

6,990,491 B2

1/2006

Dutta et al.

7,027,773 B1

4/2006

McMillin

19a
7,030,732 B2

4/2006

Tuttle

7,040,541 B2

5/2006

Swartz et al.

7,044.371 B2 *

5/2006

Dove et al. …. 235/384

7,079,921 B2

7/2006

Quackenbush et al.

7,096,089 B2

8/2006

Quackenbush et al.

7,113,864 B2

9/2006

Smith et al.

7,117,121 B2

10/2006

Brinton et al.

7,149,533 B2

12/2006

Laird et al.

7,221,928 B2

5/2007

Laird et al.

7,319,321 B2

1/2008

Murray et al.

7,327,262 B2

2/2008

Motteram et al.

7.327,268 B2

2/2008

Gruteser et al.

7,343,243 B2

3/2008

Smith et al.

7,376,623 B2

5/2008

Dutta et al.

7,378,975 B1

5/2008

Smith et al.

7,390,299 B2

6/2008

Weiner et al.

7,403,844 B2

7/2008

Chopeinski et al.

7,439,694 B2

10/2008

Atlas et al.

7,447,562 B2

11/2008

Quackenbush et al.

7,477,153 B2

1/2009

Gruteser et al.

7,480,622 B2

1/2009

Dutta et al.

7,488,294 B2

2/2009

Torch

7,523,385 B2

4/2009

Nguyen et al.

7,570,151 B2

8/2009

Tuttle

7,573,257 B2

8/2009

Li et al.

7.599,847 B2

10/2009

Block

7,653,394 B2

1/2010

McMillin

7,658.247 B2

2/2010

Carter

20a
7,840,427 B2

11/2010

O’Sullivan

7,890,358 B2

2/2011

Dutta et al.

7,978,066 B2

7/2011

Lim et al.

8,046,160 B2

10/2011

Carter et al.

8,571,902 B1

10/2013

Glavan et al.

2001/0034623 A1

10/2001

Chung

2002/0095318 A1

7/2002

Parry

2003/0055689 A1

3/2003

Block et al.

2003/0061085 A1

3/2003

Lanigan, Sr.

2003/0189094 A1

10/2003

Trabitz

2004/0035928 A1

2/2004

Anderson

2004/0056779 A1

3/2004

Rast

2004/0066273 A1

4/2004

Cortina et al.

2004/0117278 A1

6/2004

Dutta et al.

2004/0181570 A1* 9/2004

Kaneko …….... 709/200

2004/0220845 A1* 11/2004

Malapitan ……... 705/8

2004/0250076 A1

12/2004

Kung

2005/0083171 A1

4/2005

Hamilton

2005/0096946 A1

5/2005

Janakiraman et al.

2005/0159838 A1

7/2005

Quackenbush et al.

2005/0197848 A1

9/2005

Chou et al.

2005/0212657 A1

9/2005

Simon

2005/0251430 A1

11/2005

Jindel

2005/0258231 A1

11/2005

Wiater

2005/0269404 A1

12/2005

Landwirth et al.

2006/0026871 A1

2/2006

Alexander et al.

2006/0032417 A1

2/2006

Goschy et al.

2006/0145852 A1

7/2006

McElhannon et al.

21a
2006/0197523 A1

9/2006

Palecki et al.

2006/0235739 A1* 10/2006

Levis et al. ……. 705/9

2006/0249320 A1

11/2006

Carter et al.

2006/0271552 A1

11/2006

McChesney et al.

2007/0038476 A1

2/2007

Sternlicht

2007/0176739 A1

8/2007

Raheman

2007/0203765 A1* 8/2007

Schoen et al. ….... 705/6

2007/0273611 A1

11/2007

Torch

2007/0290848 A1

12/2007

Tuttle

2007/0290849 A1

12/2007

Tuttle

2007/0290879 A1

12/2007

Tuttle

2008/0041282 A1

2/2008

Goschy et al.

2008/0046298 A1

2/2008

Ben-Yehuda et al.

2008/0070771 A1* 3/2008

Campbell, Jr.... 493/186

2008/0228562 A1

9/2008

Smith et al.

2009/0066476 A1

3/2009

Raheman

2009/0115572 A1* 5/2009

Valbh et al. … 340/7.58

2009/0164261 A1

6/2009

Mateer

2010/0156606 A1

6/2010

Gold

2010/0205105 A1* 8/2010

Robertson et al...705/334

2010/0223245 A1

9/2010

Vermilye

2010/0318783 A1

12/2010

Raj et al.

2012/0030133 A1

2/2012

Rademaker

OTHER PUBLICATIONS
Cisco Systems, White Paper. “Wi-Fi Based Real-Time
Location Tracking: Solutions and Technology.” 2006.
(6 pages).

22a
Concorse Communications Group. LLC. “The WiFienabled Airport,” 2004, (4 pages).
Cox, John, “RFID, Radio Location Service Use
Soaring at Hospitals” PC World website, Aug. 20,
2008
(printed
Oct.
12.
2012),
http://www.pcworld.com/article/150075/rfid_in_hospi
lals.html, (3 pages).
IBSS Press Release, “IBSS and Prospect Airport
Services’ PDS Express Improves Efficiency While
Increasing the Customer Satisfaction of Airline
Travelers in Detroit Metropolitan Airport: Greatly
Improved Passenger Service Is Enjoyed by ‘Special
Needs’ Travelers Being Serviced Each Day. First
Year’s Success in Detroit Leads to Multi-Site
Expansion”
(printed
Oct.
12,
2012).
http://www.ibss.net/cgi-bin/news?20050308.
(2
pages).
IBSS Press Release, “IBSS and Prospect Airport
Services’ PDS Express Selected by America West
Airlines for Las Vegas. McCarran International
Airport: The Nation’s Second Largest Low-Cost
Carriers ‘Special Needs’ Travelers to Enjoy Improved
Passenger Service Via SynapseTM-Based System,”
(printed Oct. 12. 2012).
http://www.ibss.net/cgibin/news?200507 19, (1 page).
IBSS Press Release, “IBSS Introduces SynTrackTM”
Mobile Dispatch and Transport for Healthcare.
Showcased at AHRMM Technology Conference,
System Empowers Hospitals to Increase Efficiency
and Patient Throughput While Improving the Quality
of Patient Care,” (printed Oct. 12, 2012),
http://www.ibss.net/cgi-bin/news?200603211, (2 pages).

23a
USAToday.com, “Las Vegas airport offering free WiFi Internet Connections.” Posted Jan. 4, 2005 (printed
Oct. 12. 2012). http://usatoday30.usatoday.com/tech/
wireless/data/2005-01-04-vegas-wifi_x.htm, (2 pages).
International Search Report and Written Opinion
issued in Application No. PCT/USJ3/35765 mailed
Aug. 26. 2013 (6 pages).
Driscoll,
Louise,
“Remote
NewTrends,” Jun. 2009.

Check-in-driving

Taylor, “Hotel Min-Bars Provide Instant Room
Service,” Sep. 20. 1987 Los Angeles Times.
Weisel, “How Secure is Your Hotel Safe,” Mar. 1999
Travel and Leisure Magazine.
Trip Advisor, McCaran Airport Hotel Check-in
Service (MGM) Jun. 28, 2008
Business Wire, “National Airlines Introduces
National Flight Centers and Adds a Third New York,
JFK Flight,” May 6, 1999.
Certified Airline Passenger Services, “CAPS of Las
Vegas Selects Unisys to Move Check-in Out of the
Airport,” Business Wire, Inc., Jun. 28, 2000.
Certified Airline Passenger Services, “Facsimile” Oct.
16. 2003.
Gibson, Stan, “Cleared for takeoff: National Airlines
Outsources IT for Lean and Mean Flight Operations
Fueled by Web Techology,” Company Business and
Marketing. PC Week, No. 20. vol. 16, p. 87. May 17,
1999.

24a
Gould, Lark Ellen, “Raising the Stakes,” Travel
Agent, No. 10, vol. 294, p. 100, Apr. 12, 1999.
Smith, Hubble, “Airline Passenger Service Has Lofty
Expansion Goals,” Las Vegas Review Journal, Jun.
22, 2001.
Golf Bag Shipping, “Golf Bag Shipping Delivers Your
Golf Clubs” Aug. 2000.
LA Times, “News, Tips & Bargains; A Seamless
Takeoff–From Your Room.” Part L, p. 3. Sunday
Home Edition. Oct. 10, 1999.
(56)

References Cited
OTHER PUBLICATIONS

PR Newswire, “America West Offers Baggage CheckIn Service at Imperial Palace.” Jun. 21, 1999.
Purnell et al., Design and Development Airport
Security Systems and Related Applications, Baggage
Direct, Apr. 24, 2001.
Florida Department of Transportation, “Scope of
Services for Off-Line Baggage Processing,” Dec. 9,
2002.
Velotta, Richard N., “CAPS Outlines Growth Plans at
Conference,” Las Vegas Sun. Jun. 27, 2001.
Scientific and Technical Information Center, Case
Study: Dublin Airport, Airports International, Apr.
2001, C. 34, N. 3, p. 26.
* cited by examiner

25a
U.S. Patent
Sheet 1 of 9

May 23, 2017
US 9,659,336 B2

26a
U.S. Patent
Sheet 2 of 9

May 23, 2017
US 9,659,336 B2

27a
U.S. Patent
Sheet 3 of 9

May 23, 2017
US 9,659,336 B2

28a
U.S. Patent
Sheet 4 of 9

May 23, 2017
US 9,659,336 B2

29a
U.S. Patent
Sheet 5 of 9

May 23, 2017
US 9,659,336 B2

30a
U.S. Patent
Sheet 6 of 9

May 23, 2017
US 9,659,336 B2

31a
U.S. Patent
Sheet 7 of 9

May 23, 2017
US 9,659,336 B2

32a
U.S. Patent
Sheet 8 of 9

May 23, 2017
US 9,659,336 B2

33a
U.S. Patent
Sheet 9 of 9

May 23, 2017
US 9,659,336 B2

1
MOBILE BAGGAGE DISPATCH SYSTEM AND
METHOD
BACKGROUND
The present disclosure relates generally to the
field of baggage management. In particular, the

34a
present disclosure relates to a system and a method
of coordinating and monitoring baggage delivery.
When baggage is lost during an airline flight, a
passenger usually reports the bag missing and leaves
an address and phone number where the baggage can
be dropped off. The passenger continues to his
destination, for example, to a hotel, his home, or a
resort, without his baggage. The airline or airport
then commences a search for the baggage, for
example, by parsing unclaimed baggage in the
system. After the baggage is located by the airline or
airport, the airline can then deliver the baggage to the
passenger. It can be a number of days before baggage
is located and forwarded to the correct destination.
Typically, the baggage is actually delivered to the
passenger by a sub-contractor, such as a taxi service.
Often, the sub-contractor will call the
passenger at the address to confirm the drop-off
location, to determine if the passenger is home, and to
let the passenger know that the baggage will be
dropped off. A typical sub-contractor will drop the
baggage off at the front door, ring the doorbell, and
leave; where the baggage could then be stolen.
Further, the sub-contractor could simply keep the
baggage and merely report the baggage as delivered.
Thus, improved systems and methods for
coordinating and monitoring baggage delivery are
needed.
SUMMARY
One embodiment relates to an apparatus for
dispatching baggage. The apparatus includes a
processor configured to receive baggage information

35a
associated with a passenger; associate the baggage
information with a delivery person, where the
delivery person is associated with delivery person
information; and transmit at least apportion of the
baggage information and the delivery person
information to a passenger computing device
associated with the passenger.
Another embodiment relates to a method of
dispatching baggage including receiving baggage
information associated with a passenger; associating
the baggage information with a delivery person,
wherein the delivery person is associated with
delivery person information; and transmitting at
least a portion of the baggage information and the
delivery person information to a passenger computing
device associated with the passenger.
Another embodiment relates to a nontransitory computer-readable storage medium having
instructions stored thereon that, if executed by a
computing device, cause the computing device to
perform operations including receiving baggage
information associated with a passenger: associating
the baggage information with a delivery person,
wherein the delivery person is associated with
delivery person information; and transmitting at
least a portion of the baggage information and the
delivery person information to a passenger computing
device associated with the passenger.
BRIEF DESCRIPTION OF THE DRAWINGS
The foregoing and other features of the present
disclosure will become more fully apparent from the
following description and appended claims, taken in

36a
conjunction with the accompanying drawings.
Understanding that these drawings depict only
several embodiments in accordance with the
disclosure and are, therefore, not to be considered
limiting of its scope, the disclosure will be described
with additional specificity and detail through use of
the accompanying drawings.
FIG. 1 is a schematic of a mobile baggage
dispatch system in accordance with an illustrative
embodiment.
FIG. 2 is a flow diagram of a method of baggage
delivery in accordance with an illustrative
embodiment.
FIG. 3 is a diagram of a login interface of the
delivery software in accordance with an illustrative
embodiment.
FIG. 4 is a diagram of a menu interface of the
delivery software in accordance with an illustrative
embodiment.
FIG. 5 is a diagram of a select deliveries
interface of the delivery software in accordance with
an illustrative embodiment.
FIG. 6 is a diagram of the menu interface of
FIG. 4 with pending deliveries of the delivery
software in accordance with an illustrative
embodiment.
FIG. 7 is a diagram of a pending deliveries
interface of the delivery software in accordance with
an illustrative embodiment.

37a
FIG. 8 is a diagram of the menu interface of
FIG. 4 with current deliveries of the delivery software
in accordance with an illustrative embodiment.
FIG. 9 is a diagram of a current deliveries
interface of the delivery software in accordance with
an illustrative embodiment.
FIG. 10 is a diagram of an individual delivery
interface of the delivery software in accordance with
an illustrative embodiment.
FIG. 11 is a diagram of a duration cause
interface of the delivery software in accordance with
an illustrative embodiment.
FIG. 12 is a diagram of a signature interface of
the delivery software in accordance with an
illustrative embodiment.
FIG. 13 is a flow diagram of a method of
passenger-side baggage delivery in accordance with
an illustrative embodiment is shown
FIG. 14 is a diagram of a passenger interface of
the passenger software in accordance with an
illustrative embodiment.
DETAILED DESCRIPTION OF THE
ILLUSTRATIVE EMBODIMENTS
In the following detailed description, reference
is made to the accompanying drawings, which form a
part hereof. In the drawings, similar symbols
typically identify similar components, unless context
dictates otherwise. The illustrative embodiments
described in the detailed description, drawings, and

38a
claims are not meant to be limiting. Other
embodiments may be utilized, and other changes may
be made, without departing from the spirit or scope of
the subject matter presented here. It will be readily
understood that the aspects of the present disclosure,
as generally described herein, and illustrated in the
figures, can be arranged, substituted, combined, and
designed in a wide variety of different configurations,
all of which are explicitly contemplated and make
part of this disclosure.
The present disclosure is directed to a mobile
baggage dispatch system, method, and computerreadable medium. Referring to FIG. 1, a schematic of
a mobile baggage dispatch system 100 in accordance
with an illustrative embodiment is shown. The mobile
baggage dispatch system 100 can include a server
110, a transportation server 130, a deliverer
computing device 140, and a passenger computing
device 150. The server 110, the transportation server
130, the deliverer computing device 140, and the
passenger
computing
device
150
can
be
communicatively coupled via network 120. The
network 120 can be the Internet, an Ethernet, a WiFi network, a wired or wireless phone network, a
dedicated line, a wireless connection, or any other
network.
The server 110 can be a personal computer or
any other computer. A user can interface with the
server 110 via a terminal or a computing device
communicatively coupled to server 110. For example,
the server 110 can serve a webpage to the deliverer
computing device 140 or the passenger computing
device 150, which enables a user to query information
and submit commands. The webpage can be, for

39a
example, a hypertext markup language document.
Alternatively, an application can be used to interface
with the server 110.
The server 110 can receive baggage
information, transmit baggage information, manage
bag drop offs, and log bag drop offs. The server 110
can be a personal computer, a circuit, a cell phone, a
smart phone, a tablet, a personal data assistant, or
any other computing device. The server 110 can
include one or more of, a processor 111, a memory
112, server software 113, a task database 117, a
records database 118, a display 114, a user interface
115, and a transceiver 116. In alternative
embodiments, the server 110 may include fewer,
additional, and/or different components. The memory
112, which can be any type of permanent or
removable computer memory known to those of skill
in the art, can be a computer-readable storage
medium. The memory 112 can be configured to store
one or more of the server software 113, an application
configured to run the server software 113, captured
data, and/or other information and applications as
known to those of skill in the art. The transceiver 116
of the server 110 can be used to receive and/or
transmit information through a wired or wireless
network as known to those of skill in the art. The
transceiver 116, which can include a receiver and/or
a transmitter, can be a modem or other
communication component known to those of skill in
the art. The baggage information can be stored in the
records database 118. Information associated with
the bag drop offs can be stored in the task database
117.

40a
The server software 113 can be configured to
receive baggage information, transmit baggage
information, manage bag drop offs, and log bag drop
offs. For example, the server software 113 can
maintain information associated with bags waiting
for delivery and information associated with bags that
have been delivered. In one embodiment, the server
software 113 can include a computer program (for
example, script query language (SQL), PHP, Python,
html code, an applet, and/or a script) and/or an
application configured to execute the program (for
example, Microsoft™ Access, Oracle™ Database,
Microsoft Internet Explorer™ or Google Chrome™).
Alternatively, other programming languages and/or
applications known to those of skill in the art can be
used. In one embodiment, the server software 113 can
be a dedicated standalone application. The processor
111I, which can be in electrical communication with
each of the components of the server IIO, can be used
to run the application and to execute the instructions
of the server software 113. Any type of computer
processor(s) known to those of skill in the art may be
used.
The transportation server 130 can provide
baggage information to the server 110 and vice versa.
For example, the baggage information can include
information describing bags that need to be delivered,
bags that have been picked up from a terminal, and
bags that have been delivered. The transportation
server 130 can be associated with an airport, a rail
terminal, a hotel, or any other organization or place
that can be associated with baggage, missing baggage
or packages. The transportation server 130 can be a
personal computer, a circuit, a cell phone, a smart
phone, a tablet, a personal data assistant, or any

41a
other computing device. The transportation server
130 can include one or more of, a processor 131, a
memory 132, transportation server software 133, a
display 134, a user interface 135, and a transceiver
136. In alternative embodiments, the transportation
server 130 may include fewer, additional, and/or
different components. The memory 132, which can be
any type of permanent or removable computer
memory known to those of skill in the art, can be a
computer-readable storage medium. The memory 132
can be configured to store one or more of the
transportation server software 133, an application
configured to run the transportation server software
133, captured data, and/or other information and
applications as known to those of skill in the art. The
transceiver 136 of the transportation server 130 can
be used to receive and/or transmit information
through a wired or wireless network as known to
those of skill in the art. The transceiver 136, which
can include a receiver and/or a transmitter, can be a
modem or other communication component known to
those of skill in the art.
The transportation server software 133 can be
configured to notify the server 110 of needed bag drop
offs and receive indications of completed bag drop offs.
For example, the transportation server software 133
can maintain information associated with bags
waiting for delivery and information associated with
bags that have been delivered. In one embodiment,
the transportation server software 133 can include a
computer program (for example, script query
language (SQL), PHP, Python, html code, an applet,
and/or a script) and/or an application configured to
execute the program (for example, ARNIC MUSE™,
Microsoft™ Access, Oracle™ Database, Microsoft

42a
Internet
Explorer™
or
Google
Chrome™).
Alternatively, other programming languages and/or
applications known to those of skill in the art can be
used. In one embodiment, the transportation server
software 133 can be a dedicated standalone
application. The processor 131, which can be in
electrical communication with each of the components
of the transportation server 130, can be used to run
the application and to execute the instructions of the
transportation server software 133. Any type of
computer processor(s) known to those of skill in the
art may be used.
The deliverer computing device 140 can receive
and transmit baggage information to enable delivery
personnel. For example, the baggage information can
include information describing bags that need to be
picked up from a terminal, bags that need to be
delivered, and a record of bags that have been
delivered. The deliverer computing device 140 can be
associated with a delivery person such as a
subcontractor. The deliverer computing device 140
can be a cell phone, a smart phone, a tablet, a personal
data assistant, a personal computer, a circuit, or any
other computing device. The deliverer computing
device 140 can include one or more of, a processor 141,
a memory 142, transportation server software 143, a
display 144, a user interface 145, a transceiver 146, a
scanner 147, and a global positioning system (GPS)
device 148. In alternative embodiments, the deliverer
computing device 140 may include fewer, additional,
and/or different components. The memory 142, which
can be any type of permanent or removable computer
memory known to those of skill in the art, can be a
computer-readable storage medium. The memory 142
can be configured to store one or more of the delivery

43a
software 143, an application configured to run the
delivery software 143, captured data, and/or other
information and applications as known to those of
skill in the art. The transceiver 146 of the deliverer
computing device 140 can be used to receive and/or
transmit information through a wired or wireless
network as known to those of skill in the art. The
transceiver, which can include a receiver and/or a
transmitter, can be a modem or other communication
component known to those of skill in the art.
The delivery software 143 can be configured to
notify the server 110 of completed bag drop offs and
to receive bag drop off information from the server
110 and/or passenger computing device 150. For
example, the delivery software 143 can collect
information associated with bags that a delivery
person has picked up and information regarding the
location of the deliverer computing device 140 at an
indicated delivery time. In one embodiment, the
delivery software 143 can include a computer
program (for example, script query language (SQL),
PHP, Python, html code, an applet, and/or a script)
and/or an application configured to execute the
program (for example, Microsoft™ Access, Oracle™
Database, Microsoft Internet ExplorerTM or Google
ChromeTM). Alternatively, other programming
languages and/or applications known to those of skill
in the art can be used. In one embodiment, the
delivery software 143 can be a dedicated standalone
application. The processor 141, which can be in
electrical communication with each of the components
of the deliverer computing device 140, can be used to
run the application and to execute the instructions of
the delivery software 143. Any type of computer

44a
processor(s) known to those of skill in the art may be
used.
The passenger computing device 150 can
receive and transmit baggage information to enable a
passenger to interact remotely with delivery
personnel. For example, the baggage information can
include information describing bags that need to be
picked up from a terminal, bags that need to be
delivered, and a record of bags that have been
delivered. The passenger computing device 150 can be
associated with a passenger associated with lost
baggage. The passenger computing device 150 can be
a cell phone, a smart phone, a tablet, a personal data
assistant, a personal computer, a circuit, or any other
computing device. The passenger computing device
150 can include one or more of, a processor 151, a
memory 152, passenger software 153, a display 154,
a user interface 155, and a transceiver 156. In
alternative embodiments, the passenger computing
device 150 may include fewer, additional, and/or
different components. The memory 152, which can be
any type of permanent or removable computer
memory known to those of skill in the art, can be a
computer-readable storage medium. The memory 152
can be configured to store one or more of the
passenger server software 153, an application
configured to run the passenger software 153,
captured data, and/or other information and
applications as known to those of skill in the art. The
transceiver 156 of the passenger computing device
150 can be used to receive and/or transmit
information through a wired or wireless network as
known to those of skill in the art. The transceiver 156,
which can include a receiver and/or a transmitter, can

45a
be a modem or other communication component
known to those of skill in the art.
The passenger software 153 can be configured
to transmit and receive bag drop off information to the
server 110 and/or deliverer computing device 140. For
example, the passenger software 153 can collect
information associated with a bag drop off and submit
it to server and display information associated with a
bag drop off such as a proposed delivery time. In one
embodiment, the passenger software 153 can include
a computer program (for example, script query
language (SQL), PHP, Python, html code, an applet,
and/or a script) and/or an application configured to
execute the program (for example, Microsoft™ Access,
Oracle™ Database, Microsoft Internet Explorer™ or
Google Chrome™). Alternatively, other programming
languages and/or applications known to those of skill
in the art can be used. In one embodiment, the
passenger software 153 can be a dedicated standalone
application. The processor 151, which can be in
electrical communication with each of the components
of the deliverer computing device 150, can be used to
run the application and to execute the instructions of
the passenger software 153. Any type of computer
processor(s) known to those of skill in the art may be
used.
Advantageously,
the
server
110,
the
transportation server 130, the deliverer computing
device 140, and the passenger computing device 150
can communicate baggage information amongst each
other to increase the efficiency of missing baggage
delivery, enhance passenger experience, and provide
a record of baggage delivery.

46a
Referring now to FIG. 2, a flow diagram of a
method of baggage delivery 200 in accordance with an
illustrative embodiment is shown. Additional, fewer,
or different operations may be performed depending
on the particular implementation. The operations for
baggage delivery 200 can be executed, for example, in
least in part by a system for mobile baggage dispatch,
such as the system described above.
In an operation 210, a server can receive
information associated with needed bag drop offs from
a transportation server. For example, the
transportation server can send a list of bags that need
to be dropped off to passengers. The list can include
bag information such as a proposed drop off address,
a passenger name, passenger contact information, a
bag description, a current bag location, delivery
status, and a tracking code.
In an operation 215, the server can transmit a
pick up bags message to a deliverer computing device
associated with a delivery person. The pick up bags
message can include the proposed drop off address,
the passenger name, the bag description, the current
bag location, and the tracking code. The delivery
person can proceed to the current bag location to
obtain the bags that need to be dropped off.
In an operation 220, the delivery person can
obtain the bags that need to be dropped off. The
delivery person can enter information into the
deliverer computing device indicating that the bags
that need to be dropped off are now in the possession
of the delivery person. The deliverer computing device
can include delivery software as described above. In
one embodiment, the deliverer computing device can

47a
include a scanner to scan the tracking code of the bags
picked up by the delivery person.
In an operation 225, the delivery software can
update the bag information and transmit the updated
bag information to the server. The delivery software
can update the bag information such as current bag
location and delivery status. For example, the
delivery status can be updated to “in transit.” In
another embodiment, the deliverer computing device
can include an interface for the delivery person to
indicate which bags he has picked up, as described
below.
FIG. 3 is a diagram of a login interface 300 of
the delivery software in accordance with an
illustrative embodiment. The delivery person can
enter a username in the username text box 310 and a
password in the password text box 320 in order to
gain access to the delivery software.
FIG. 4 is a diagram of a menu interface 400 of
the delivery software in accordance with an
illustrative embodiment. The delivery person can
select one of a current deliveries component 410, a
pending deliveries component 420, a select deliveries
component 430, and an email component 440,
described further below. For example, the delivery
person can select the select deliveries component 430.
FIG. 4 shows that the select deliveries component 430
has information regarding 70 bags that need to be
dropped off.
FIG. 5 is a diagram of a select deliveries
interface 500 of the delivery software in accordance
with an illustrative embodiment. The select deliveries

48a
interface 500 can include a display 510 with a list of
bag drop offs 530. The list of bag drop offs 530 can be
received from the server. The list of bag drop offs 530
can include information describing the bags that need
to be dropped off such as the proposed drop off
address, the passenger name, the bag description, the
current bag location, and the tracking code. Each bag
in the list of bag drop offs 530 can be associated with
a selection field 520. The delivery person can check
the selection field 520 for each bag in the list of bag
drop offs 530 that he picks up. In FIG. 5, the first
three bags of the list of bag drop offs 530 are selected.
The list of bag drop offs 530 can also include zone
information 530. For example, the delivery person
may be assigned a certain zone or zones, such as “Zone
A.” The delivery person would pick up all bags labeled
“Zone A.” After the delivery person has selected the
desired bag(s), he can select a claim button 540, which
indicates his receipt of the selected bags from the list
of bag drop offs 530. The claimed bag(s) the delivery
person has selected can be classified as pending
deliveries. The deliverer computing device can
transmit information to the server describing the
pending deliveries, i.e., the desired bag(s) the delivery
person has selected and claimed. Alternatively, a
dispatcher can assign bags for the delivery person to
take. In one embodiment, the list of bag drop offs 530
can be limited to bags assigned by the dispatcher.
FIG. 6 is a diagram of the menu interface of
FIG. 4 with pending deliveries 600 of the delivery
software in accordance with an illustrative
embodiment. After the delivery person has selected
and claimed the desired bag(s), the pending deliveries
component 420 can indicate the number of pending

49a
deliveries. FIG. 6 shows that there are three pending
deliveries.
FIG. 7 is a diagram of a pending deliveries
interface 700 of the delivery software in accordance
with an illustrative embodiment. The pending
deliveries interface 700 can include a list of pending
bag drop offs 710 which can be all or some of the
pending deliveries, The list of pending bag drop offs
710 can include information describing the bags that
need to be dropped off such as the proposed drop off
address, the passenger name, the bag description, the
current bag location, and the tracking code. Each bag
in the list of pending bag drop offs 710 can be
associated with a selection field 720. The delivery
person can check the selection field 720 for each bag
in the list of pending bag drop offs 710 that he intends
to presently deliver, i.e., the bags that are “out for
delivery.” Once the selection field 720 is checked, the
delivery person submits the information by clicking a
button 730. The bag(s) the delivery person has
selected can be classified as current deliveries. The
deliverer computing device can transmit information
to the server describing the current deliveries.
Referring again to FIG. 2, in an operation 230,
the delivery person can proceed to a drop off location
associated with a bag he has selected and picked up.
The delivery person can use the deliverer computing
device to determine where to take a bag and optimize
his delivery route. FIG. 8 is a diagram of the menu
interface of FIG. 4 with current deliveries 800 of the
delivery software in accordance with an illustrative
embodiment. After the delivery person has selected
the bags that are “out for delivery” (operation 235 in
FIG. 2) the current deliveries component 410 can

50a
indicate the number of bags out for delivery. FIG. 8
shows that there are three current deliveries.
FIG. 9 is a diagram of a current deliveries
interface 900 of the delivery software in accordance
with an illustrative embodiment. The current
deliveries interface 900 can include a list of current
bag drop offs 910 which can be all or some of the
current deliveries. The list of current bag drop offs
910 can include information describing the bags that
need to be dropped off such as the proposed drop off
address, the passenger name, the bag description, the
current bag location, and the tracking code. Each bag
in the list of current bag drop offs 910 can be selected
to provide further information. The list of current bag
drop offs 910 can be ordered. For example, the bags
can be ordered in terms of most efficient travel path,
oldest in the queue, or a combination of both. Button
920 can be selected to edit an entry in the list of
current bag drop offs 910. Button 930 can be selected
to change the ordering of list of current bag drop offs
910.
Referring again to FIG. 2, in an operation 240,
after the delivery person has delivered the baggage,
the delivery person can indicate completion of the
baggage with the deliverer computing device. For
example, the delivery person can indicate that the
baggage was delivered or have a passenger sign for
the baggage. At the time of completion of the baggage
delivery, in an operation 245, the bag information can
be global position system (GPS) stamped, indicating
the location of the deliverer computing device (and
thus the baggage) at the time of delivery. At the time
of completion of the baggage delivery, in an operation
250, the bag information can be time stamped. In an

51a
operation 255, the GPS stamp information, the time
stamp information, and other bag information can be
transmitted to the server. The other information can
include, for example, a duration cause and an
electronic signature.
FIG. 10 is a diagram of an individual delivery
interface 1000 of the delivery software in accordance
with an illustrative embodiment. The individual
delivery interface 1000 can include an individual
delivery description 1010, a delivered button 1020, an
un-assign delivery button 1030, and an unable to
deliver button 1040. The individual delivery
description 1010 can include a display of the proposed
drop off address, the passenger name, the passenger
contact information, the bag description, the tracking
code, and a map associated with the proposed drop off
address. After the delivery person drops off the
baggage, the delivery person can select the delivered
button 1020 to GPS stamp the delivery, time stamp
the delivery, and update the status of the delivery to
“delivered.” The deliverer computing device can
transmit the GPS stamp, the time stamp, and the
status update to the server. If the delivery person is
unable to deliver the baggage, the delivery person can
select the unable to deliver button 1040 to re-queue
the baggage delivery for later. If the delivery person
gives the baggage to another delivery person, the
delivery person can select the un-assign delivery
button 1030 to re-queue the baggage delivery so that
the other delivery person can add the baggage to his
pending deliveries.
FIG. 11 is a diagram of a duration cause
interface 1100 of the delivery software in accordance
with an illustrative embodiment. If baggage is not

52a
delivered within a predetermined period, the delivery
software can display the duration cause interface
1100 to prompt the delivery person to indicate the
cause of the delay. If the delivery person had a vehicle
problem or personal incident, he can select a driver
issue button 1110. If the delivery person had to
process an inordinate amount of baggage, he can
select a high volume button 1120. If the delivery
person picked up the baggage in the evening and
delivered the next morning, he can select a late
sweep/early delivery button 1130.
FIG. 12 is a diagram of a signature interface
1200 of the delivery software in accordance with an
illustrative embodiment. The signature interface
1200 can be used to record a passenger's acceptance
of the baggage delivery. The signature interface 1200
can include a signature block 1210 and a submit
button 1220. The passenger can electronically sign
the signature block 1210 and select the submit button
1220 to indicate acceptance of the baggage.
Referring now to FIG. 13, a flow diagram of a
method of passenger-side baggage delivery 1300 in
accordance with an illustrative embodiment is shown.
Additional, fewer, or different operations may be
performed
depending
on
the
particular
implementation. The operations for passenger-side
baggage delivery 1300 can be executed, for example,
in least in part by a system for mobile baggage
dispatch, such as the system described above.
In an operation 1310, a passenger can report
missing baggage to a common carrier, such as an
airline. The passenger can provide information such
as a proposed drop off address, a passenger name,

53a
passenger contact information, and a bag description.
Alternatively, the common carrier can identify a bag
as unclaimed. A transportation server can receive bag
information such as the proposed drop off address, the
passenger name, the passenger contact information,
and the bag description.
In an operation 1320, after the bag is found, the
transportation server can assign the bag the proposed
drop off address, the passenger name, the passenger
contact information, the bag description, a current
bag location, delivery status, and a tracking code. The
transportation server can send the bag information to
a server.
In an operation 1330, the server can create a
passenger record and an interface for the passenger.
The interface can enable the passenger to obtain and
change information regarding a prospective delivery
of his missing baggage. In an operation 1340, the
server can transmit delivery information to a
passenger computing device. The server can also
transmit delivery information to a deliverer
computing device, as described above.
In an operation 1350, the passenger computing
device can display the delivery information. In one
embodiment, the passenger can obtain information
describing the delivery person such as a picture of the
delivery person, a picture of the delivery person's
vehicle, an estimated time of delivery, the proposed
drop off address, the delivery status, and a map
showing the current location of the baggage. The
interface can be, for example, a webpage or an
application such as an iPhone app. The interface can

54a
be accessed, for example, using a
computing device, as described above.

passenger

In an operation 1360, the passenger can alter
the delivery information. In an operation 1370, the
passenger computing device can transmit the changes
to the delivery information to the server. The server
can then transmit the changes to the deliverer
computing device. The deliverer computing device can
display a notification that changes to a baggage
delivery have occurred.
In an operation 1380, the server or deliverer
computing device can change the delivery schedule of
the delivery person. The delivery person can adapt to
the changes in the delivery information. For example,
if the passenger changes a proposed delivery time
using the passenger computing device, the delivery
person can be informed of the desired changed via the
deliverer computing device.
FIG. 14 is a diagram of a passenger interface
1400 of the passenger software in accordance with an
illustrative embodiment. The passenger interface
1400 can be used to display delivery information and
receive selections from a passenger. The passenger
interface 1400 can include delivery information 1410,
driver information 1420, a baggage map 1450,
baggage information 1460, a hold button 1470, and a
waive signature button 1480.
The delivery information 1410 can include a
reference (serial) number, airline information, airport
information, a passenger (customer) name, a
passenger phone number, a passenger email address,
a passenger delivery address, and a community access

55a
code. The delivery information 1410 can be received
from a server. The delivery information 1410 can
include an update button 1415, for altering and
updating the delivery information. For example, the
passenger can change his passenger phone number
and select the update button 1415 to transmit the
change to the server.
The driver information 1420 can include a
driver picture 1430, a driver name 1435, a driver
email 1437, and a driver vehicle picture 1440. The
driver information 1420 can be any information that
can be used to identify the delivery person (driver).
When a delivery person arrives at a passenger
location to drop off baggage, the passenger can use the
driver information 1420 to assure that the delivery
person is who he represents himself to be.
The baggage map 1450 can display a current
location of the passenger's baggage. Alternatively, the
baggage map 1450 can display an approximate
location of the passenger's baggage. A signpost 1455
can be used to mark the location of the passenger's
baggage on the baggage map 1450.
The baggage information 1460 can include a
number of bags in the delivery, a delivery method,
additional requests, a time of baggage recovery, a
time of baggage assignment to a delivery person
(driver), a latest delivery time, and a current status of
the baggage. The baggage information 1460 can also
include information about the type of baggage, such
as a size, shape, and design of the baggage. The
information can include a photo of the actual baggage
or of a generic baggage of the same type. The baggage
photo or description can be presented on the display

56a
along with other baggage information. The passenger
interface 1400 can update the baggage information
1460 as a delivery person completes other deliveries.
The passenger can select the hold button 1470
to indicate that he would like to delay delivery until a
later time. For example, if the passenger will not be
home until 6:00 p.m., passenger can select the hold
button 1470 to delay the delivery time until after 6:00
p.m. For example, the delivery time change can be
transmitted to the server, which can then relay the
change to the deliverer computing device. The server
or deliverer computing device can reorder the
deliveries to improve efficiency given the change to
the delivery time.
The passenger can select the waive signature
button 1480 to indicate that the delivery person does
not need to obtain a passenger signature in order to
complete the delivery, i.e., the delivery person can
leave the bags at the door. When the passenger selects
the waive signature button 1480, a signature waiver
can be transmitted to the server, which can then relay
the signature waiver to the deliverer computing
device.
Advantageously, a passenger can control
delivery parameter, such as the delivery time, and
obtain information to assure that the delivery person
is who he represents himself to be.
One or more flow diagrams may have been used
herein. The use of flow diagrams is not meant to be
limiting with respect to the order of operations
performed. The herein described subject matter
sometimes illustrates different components contained

57a
within, or connected with, different other
components. It is to be understood that such depicted
architectures are merely exemplary, and that in fact
many other architectures can be implemented which
achieve the same functionality. In a conceptual sense,
any arrangement of components to achieve the same
functionality is effectively “associated” such that the
desired functionality is achieved. Hence, any two
components herein combined to achieve a particular
functionality can be seen as “associated with” each
other such that the desired functionality is achieved,
irrespective of architectures or intermedial
components. Likewise, any two components so
associated can also be viewed as being “operably
connected”, or “operably coupled”, to each other to
achieve the desired functionality, and any two
components capable of being so associated can also be
viewed as being “operably couplable”, to each other to
achieve the desired functionality. Specific examples of
operably couplable include but are not limited to
physically mateable and/or physically interacting
components and/or wirelessly interactable and/or
wirelessly interacting components and/or logically
interacting and/or logically interactable components.
With respect to the use of substantially any
plural and/or singular terms herein, those having
skill in the art can translate from the plural to the
singular and/or from the singular to the plural as is
appropriate to the context and/or application. The
various singular/plural permutations may be
expressly set forth herein for sake of clarity.
It will be understood by those within the art
that, in general, terms used herein, and especially in
the appended claims (e.g., bodies of the appended

58a
claims) are generally intended as “open” terms (e.g.,
the term “including” should be interpreted as
“including but not limited to,” the term “having”
should be interpreted as “having at least,” the term
“includes” should be interpreted as “includes but is
not limited to,” etc.). It will be further understood by
those within the art that if a specific number of an
introduced claim recitation is intended, such an
intent will be explicitly recited in the claim, and in the
absence of such recitation no such intent is present.
For example, as an aid to understanding, the
following appended claims may contain usage of the
introductory phrases “at least one” and “one or more”
to introduce claim recitations. However, the use of
such phrases should not be construed to imply that
the introduction of a claim recitation by the indefinite
articles “a” or “an” limits any particular claim
containing such introduced claim recitation to
inventions containing only one such recitation, even
when the same claim includes the introductory
phrases “one or more” or “at least one” and indefinite
articles such as “a” or “an” (e.g., “a” and/or “an” should
typically be interpreted to mean “at least one” or “one
or more”); the same holds true for the use of definite
articles used to introduce claim recitations. In
addition, even if a specific number of an introduced
claim recitation is explicitly recited, those skilled in
the art will recognize that such recitation should
typically be interpreted to mean at least the recited
number (e.g., the bare recitation of “two recitations,”
without other modifiers, typically means at least two
recitations, or two or more recitations). Furthermore,
in those instances where a convention analogous to
“at least one of A, B, and C, etc.” is used, in general
such a construction is intended in the sense one

59a
having skill in the art would understand the
convention (e.g., “a system having at least one of A, B,
and C” would include but not be limited to systems
that have A alone, B alone, C alone, A and B together,
A and C together, B and C together, and/or A, B, and
C together, etc.). In those instances where a
convention analogous to “at least one of A, B, or C,
etc.” is used, in general such a construction is
intended in the sense one having skill in the art would
understand the convention (e.g., “a system having at
least one of A, B, or C” would include but not be
limited to systems that have A alone, B alone, C alone,
A and B together, A and C together, B and C together,
and/or A, B, and C together, etc.). It will be further
understood by those within the art that virtually any
disjunctive word and/or phrase presenting two or
more alternative terms, whether in the description,
claims, or drawings, should be understood to
contemplate the possibilities of including one of the
terms, either of the terms, or both terms. For
example, the phrase “A or B” will be understood to
include the possibilities of “A” or “B” or “A and B.”
The foregoing description of illustrative
embodiments has been presented for purposes of
illustration and of description. It is not intended to be
exhaustive or limiting with respect to the precise form
disclosed, and modifications and variations are
possible in light of the above teachings or may be
acquired from practice of the disclosed embodiments.
It is intended that the scope of the invention be
defined by the claims appended hereto and their
equivalents.
What is claimed is:

60a
l. An apparatus for dispatching baggage,
comprising:
a server having a processor and a transceiver
configured to transmit and receive
communications to and from a passenger
computing device associated with a
passenger and a deliverer computing
device associated with a delivery person
wherein the passenger computing device
includes a passenger interface to
communicate with the server; and
the processor configured to:
receive, via the transceiver, after a piece of
baggage has been transported to a
destination.
baggage
information
relating to the piece of baggage to be
delivered to the passenger, the baggage
information including a drop off address.
wherein the passenger is at a location
different than the destination;
associate the baggage information with the
delivery person, wherein the delivery
person is associated with delivery person
information;
transmit, via the transceiver, a pick up bags
message to the deliverer computing
device associated with the delivery
person; and
transmit, via the transceiver, at least a portion
of the baggage information and the

61a
delivery person information to the
passenger computing device associated
with the passenger;
receive, via the transceiver, from the passenger
computing device a selection to hold
delivery of the piece of baggage using the
passenger interface until a delayed
delivery time wherein the passenger
interface displays travel information of
the passenger including at least one of
an airline name and an airport name
and a baggage map configured to display
on the passenger computing device an
approximate location or current location
of the piece of baggage associated with
the travel information wherein the
passenger interface is updated with
changes in the approximate location or
the current location of the piece of
baggage during transport;
relay, via the transceiver, a delivery change to
the
deliverer
computing
device
responsive to the selection to hold
delivery of the piece of baggage using the
passenger interface; and
reorder other deliveries associated with
deliverer computing device given the
delivery change.
2. ·The apparatus of claim 1, wherein the
baggage information further comprises at least one of
a picture of the delivery person, a picture of a vehicle
of the delivery person, delivery person, a picture of a

62a
vehicle of the delivery person, contact information, a
bag description, a current bag location, a delivery
status, and a tracking code.
3. The apparatus of claim l, wherein the
processor is further configured to receive, via the
transceiver, updated information entered via the user
interface of the passenger computing device.
4. The apparatus of claim 3, wherein updated
information comprises a selection to waive a
signature using the passenger interface.
5. The apparatus of claim 3, wherein the
processor is further configured to transmit, via the
transceiver, the updated information to the deliverer
computing device.
6. The apparatus of claim l, wherein the
processor is further configured to receive, via the
transceiver, delivery information from the deliverer
computing device, wherein the delivery information
comprises at least one of a deliverer computing device
location and a delivery time stamp.
7. A
comprising:

method

of

dispatching

baggage.

receiving, through a transceiver of a server and
after a piece of baggage has been
transported to a destination, baggage
information relating to the piece of
baggage to be delivered to a passenger,
the baggage information including a
drop off address, wherein the passenger

63a
is at a location different than the
destination;
associating, by the processor of the server, the
baggage information with a delivery
person, wherein the delivery person is
associated
with
delivery
person
information:
transmitting, through the transceiver, a pick
up bags message to a deliverer
computing device associated with the
delivery persona;
transmitting. through the transceiver, at least
a portion of the baggage information and
the delivery person information to a
passenger computing device associated
with the passenger;
receiving, through the transceiver, from the
passenger computing device a selection
to hold delivery of the piece of baggage
using a passenger interface until a
delayed delivery time wherein the
passenger interface displays travel
information of the passenger including
at least one of an airline name and an
airport name and a baggage map
configured to display on the passenger
computing device an approximate
location or current location of the piece
of baggage associated with the travel
information wherein the passenger·
interface is updated with changes in the
approximate location or the current

64a
location of the piece of baggage during
transport;
relaying, through the transceiver, a delivery
change to the deliverer computing device
responsive to the selection to hold
delivery of the piece of baggage using the
passenger interface; and
reordering, by the processor of the server, other
deliveries associated with the deliverer
computing device given the delivery
change.
8. The method of claim 7, wherein the baggage
information farther comprises at least one of a picture
of the delivery person, a picture of a vehicle of the
delivery person, a name of the delivery person, a
passenger name, passenger contact information, a
bag description, a current bag location, a delivery
status, and a tracking code.
9. The method of claim 7, further comprising
receiving, by the transceiver, updated information
entered via the passenger interface of the passenger
computing device.
10. The method of claim 9, wherein updated
information comprises a selection to waive a
signature using the passenger interface.
11. The method of claim 9, further comprising
transmitting, via the transceiver, the updated
information to the deliverer computing device.
12. The method of claim 7, further comprising
receiving, via the transceiver, delivery information

65a
from the deliverer computing device, wherein the
delivery information comprises at least one of a
deliverer computing device location and a delivery
time stamp.
13. A non-transitory, tangible computerreadable storage medium having instructions stored
thereon that, if executed by a server processor, cause
the server processor to perform operations
comprising:
transmitting and receiving communications, by
the server processor via a transceiver, to
and from a passenger computing device
associated with a passenger and a
deliverer computing device associated
with a delivery person wherein the
passenger computing device includes a
passenger interface to communicate
with a server having the server
processor;
receiving baggage information, by the server
processor via the transceiver, after a
piece of baggage has been transported to
a destination, relating the piece of
baggage to be delivered to a passenger,
the baggage information including a
drop off address, wherein the passenger
is at a location different than the
destination;
associating, by the server processor, the
baggage information with a delivery
person, wherein the delivery person is

66a
associated
with
information;

delivery

person

transmitting, by the server processor via the
transceiver, a pick up message to a
deliverer computing device associated
with the delivery person;
transmitting, by the server processor via the
transceiver, at least a portion of the
baggage information and the delivery
person information to a passenger
computing device associated with the
passenger;
receiving, by the server processor via the
transceiver,
from
the
passenger
computing device a selection to hold
delivery of the piece of baggage using the
passenger interface until a delayed
delivery time wherein the passenger
interface displays travel information of
the passenger including at least one of
an airline name and an airport name
and a baggage map configured to display
on the passenger computing device an
approximate location or current location
of the piece of baggage associated with
the travel information wherein the
passenger interface is updated with
changes in the approximate location or
the current location of the piece of
baggage during transport;
relaying, by the server processor via the
transceiver, a delivery change to the

67a
deliverer computing device responsive to
the selection to bold delivery of the piece
of baggage using the passenger
interface; and
reordering, by the server processor. other
deliveries associated with the deliverer
computing device given the delivery
change.
14. The computer-readable storage medium of
claim 13, wherein the baggage information comprises
at least one of a picture of the delivery person, a
picture of a vehicle of the delivery person, a name of
the delivery person, a passenger name, passenger
contact information, a bag description, a current bag
location, a delivery status, and a tracking code.
15. The computer-readable storage medium of
claim 13, further comprising receiving, by the server
processor via the transceiver, updated information
from the passenger computing device.
16. The computer-readable storage medium of
claim 15, wherein updated information comprises a
selection to waive a signature waiver by the
passenger interface.
17. The computer-readable storage medium of
claim 15, further comprising transmitting, by the
server processor via the transceiver, the updated
information to the deliverer computing device.
18. The computer-readable storage medium of
claim 13, further comprising receiving, by the server
processor via the transceiver, delivery information

68a
from the deliverer computing device. wherein the
delivery information comprises at least one of a
deliverer computing device location and a delivery
time stamp.
19. The apparatus of claim 1, wherein the piece
of baggage is one of a plurality of pieces of baggage to
be delivered to a plurality of passengers, and wherein
the processor is further configured to determine a
most efficient travel path for the delivery person.
20. The apparatus of claim 1, wherein the piece
of baggage is one of a plurality of pieces of baggage to
be delivered to a plurality of passengers, and wherein
the processor is further configured to order the
plurality of pieces of baggage in a queue based on an
amount of time for which each of the plurality of
pieces of baggage is in the queue.
* * * * *

